<html>
<title> - [H.A.S.C. No. 115-31](Committee on Armed Services) and Serial No. 115-57 (Committee on Foreign Affairs) - Consequences and Context for Russia's Violations of the Inf Treaty</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






                                     
 
                         [H.A.S.C. No. 115-31]
                         
                         

                        CONSEQUENCES AND CONTEXT

                       FOR RUSSIA'S VIOLATIONS OF

                             THE INF TREATY

                               __________

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 of the

                      COMMITTEE ON FOREIGN AFFAIRS

                          [Serial No. 115-57]

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 30, 2017
                             
                             

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                          _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-147                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     







                                     
                      COMMITTEE ON ARMED SERVICES
                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona, Vice Chair    JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               SUSAN A. DAVIS, California
DUNCAN HUNTER, California            RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            BETO O'ROURKE, Texas
MICHAEL R. TURNER, Ohio              DONALD NORCROSS, New Jersey
MIKE COFFMAN, Colorado               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               RO KHANNA, California
SAM GRAVES, Missouri
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk

                                 ------                                

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces, Committee on Armed Services..     1

                               WITNESSES

Rose, Hon. Frank A., Former Assistant Secretary of State for Arms 
  Control, Verification, and Compliance, Department of State.....     1
Scher, Hon. Robert M., Former Assistant Secretary of Defense for 
  Strategy, Plans, and Capabilities, Department of Defense.......     3
Wolfsthal, Jon Brook, Former Senior Director for Arms Control and 
  Nonproliferation, National Security Council....................     4

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces, Committee on 
      Armed Services.............................................    37
    Keating, Hon. William R., a Representative from 
      Massachusetts, Ranking Member, Subcommittee on Terrorism, 
      Nonproliferation, and Trade, Committee on Foreign Affairs..    39
    Poe, Hon. Ted., a Representative from Texas, Chairman, 
      Subcommittee on Terrorism, Nonproliferation, and Trade, 
      Committee on Foreign Affairs...............................    35
    Rogers, Hon. Mike............................................    33
    Rose, Hon. Frank A...........................................    40
    Scher, Hon. Robert M.........................................    49
    Wolfsthal, Jon Brook.........................................    63

Documents Submitted for the Record:

    Letter to Chairman of the Joint Chiefs of Staff Dempsey......    81
    Joint Chiefs of Staff 2013 report............................    83

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    99
    Mr. Rogers...................................................    95
   CONSEQUENCES AND CONTEXT FOR RUSSIA'S VIOLATIONS OF THE INF TREATY

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Strategic Forces, 
            Meeting Jointly with the Committee on Foreign 
            Affairs, Subcommittee on Terrorism, 
            Nonproliferation, and Trade, Washington, DC, 
            Thursday, March 30, 2017.

    The subcommittees met, pursuant to call, at 10:45 a.m., in 
room 2172, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the Subcommittee on Strategic Forces) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES, COMMITTEE 
                       ON ARMED SERVICES

    Mr. Rogers. This joint hearing will come to order. Since we 
were called away for votes at a bad time, we have agreed to 
dispense with opening statements from the members and go 
directly to our witnesses. We want to thank our witnesses for 
being here and taking the time to not only attend, but to 
prepare. We know it takes a lot of time and energy, and it is a 
great help to us, so thank you very much.
    We have a distinguished panel with us today. The Honorable 
Frank Rose, former Assistant Secretary of State for Arms 
Control, Verification, and Compliance; the Honorable Bob Scher, 
Former Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities; and Jon Wolfsthal, did I say that right?
    Mr. Wolfsthal. Excellent, sir.
    Mr. Rogers. Former Senior Director of Arms Control and 
Nonproliferation, National Security Council.
    We will start with Mr. Rose. You are recognized for an 
opening statement.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 33.]

STATEMENT OF HON. FRANK A. ROSE, FORMER ASSISTANT SECRETARY OF 
     STATE FOR ARMS CONTROL, VERIFICATION, AND COMPLIANCE, 
                      DEPARTMENT OF STATE

    Mr. Rose. Great. Chairman Rogers, Chairman Poe, Ranking 
Member Cooper, Ranking Member Keating, members of the 
committee, it is a pleasure to appear before you today to 
discuss how the United States and its allies should respond to 
Russia's violation of its obligations under the Intermediate 
Nuclear Forces, or INF, Treaty. As I outlined in my prepared 
statement, I believe it is highly unlikely that Russia will 
return to compliance with its obligations under the treaty for 
a variety of political and military reasons. Specifically, I 
believe that Russia no longer views the Euro-Atlantic security 
architecture put in place in the late 1980s and early 1990s as 
in its interest, and it is slowly but surely trying to, I would 
say, dismantle that architecture, and the INF Treaty violation 
is a symptom of that.
    Therefore, a strong but proportional response is required 
by the United States and its allies to effectively deal with 
Russia's violation. I would recommend that the United States 
and its allies adopt a, quote, ``countervailing strategy'' in 
response to Russia's violation that seeks to enhance deterrence 
by holding critical Russian assets at risk. That response 
should also include limited defensive measures to deny Russia 
significant military benefit from the deployment of the new 
ground launch cruise missile. This approach would include 
several elements.
    First, I think it is important that the United States 
remain focused on maintaining the unity of our alliance, both 
in Asia and in Europe. The INF Treaty is not simply a bilateral 
treaty between the U.S. and Russia, but it goes to the heart of 
Euro-Atlantic security. So as we develop our response options, 
I think it is imperative we do that in a way that maximizes 
coordination with allies. And, furthermore, as we look at 
military response options, I think it is important that we find 
ways to include the allies.
    Secondly, I think the United States needs to place the 
blame for the demise on the INF Treaty squarely with Russia. It 
is Russia who has cheated on the treaty and got caught. We need 
to be careful, though, that we don't unilaterally withdraw and 
give Russia a victory. My predecessor in the Bush 
administration, Steve Rademaker, in testimony before this 
committee in July of 2014, made the same point. We don't want 
to give the Russians a gift.
    Third, I think it is very important that the United States 
continue to fund the nuclear modernization program, 
specifically the new air-launch cruise missile, the long-range 
standoff system, or LRSO. This will improve our ability to hold 
critical Russian targets at risk.
    Fourth, I think the United States should develop a 
conventional variant of the LRSO. Again, this conventional 
variant of the LRSO will further allow us to hold critical 
Russian targets at risk.
    Fifth, I think we should facilitate allied acquisition of 
air- and sea-launch conventional strike capabilities, 
particularly the joint air and surface standoff missile, or 
JASSM, and we should also consider selling the Tomahawk sea-
launch cruise missile to interested allies.
    Sixth, I think it is critical that we remind Russia that 
NATO [North Atlantic Treaty Organization] remains a nuclear 
alliance, and implement all of the key nuclear recommendations 
from NATO's Warsaw Summit of July 2016.
    And, finally, the United States and NATO should deploy 
limited cruise missile defenses to protect key alliance assets 
in the event of a conflict with Russia. While I support the 
deployment of limited cruise missiles, I would caution against 
moving forward with the deployment of a larger set of mission 
defense capabilities aimed against Russia, especially Russia's 
strategic deterrent. Such an approach would be extremely 
expensive and technologically challenging.
    In conclusion, Mr. Chairman, the INF Treaty has served the 
security interests of the United States and our allies for 
almost 30 years. It is not just a bilateral treaty between the 
U.S. and Russia, but goes to the heart of European security. 
However, it is clear to me that Russia is not coming back into 
compliance, or unlikely to do; therefore, a strong but 
proportional response is required. Those response options 
should be implemented in a way that maintains alliance unity, 
and places the blame for the demise of the treaty squarely 
where it belongs, with Russia.
    Thank you very much.
    [The prepared statement of Mr. Rose can be found in the 
Appendix on page 40.]
    Mr. Rogers. Thank you very much.
    Mr. Scher, you are recognized for your opening statement.

 STATEMENT OF HON. ROBERT M. SCHER, FORMER ASSISTANT SECRETARY 
OF DEFENSE FOR STRATEGY, PLANS, AND CAPABILITIES, DEPARTMENT OF 
                            DEFENSE

    Mr. Scher. Thank you. Chairman Rogers, Chairman Poe, 
Ranking Member Cooper, Ranking Member Keating, distinguished 
members, thank you for inviting me to testify today. As I am 
sure you all know, my testimony represents my personal views 
only, and not those of the previous administration. And I will 
try to touch on just the key highlights of my written 
testimony, which I know will be put into the record, in this 
opening statement to keep lots of time for questions and 
answers.
    Russia's violation of the INF Treaty and its deployment of 
the violating system must be considered within the context of 
Russia's overall aggressive behavior. Given this, any approach 
to Russia's violation needs to be considered within a complete 
context of a strategy towards Russia. Having said that, within 
this context, I believe it will be very difficult, if not 
impossible, to bring Russia back into compliance, but I also 
believe that right now, it remains in our best interests to try 
to get Russia to return. Having the INF Treaty in force 
enhances strategic stability, and continuing to be seen by our 
allies as working diligently with Russia is important.
    The centerpiece of any policy must be approaching this with 
all levers of national power and using these to demonstrate 
that we will not allow the Russians to benefit from their 
violation. As such, the administration should consider taking 
some combination of military actions along with diplomatic and 
economic actions to show Russia it will not achieve the 
advantages it seeks by deploying this system. And further, I 
would argue that U.S. government policies should be oriented 
towards demonstrating to Russia that they are actually going to 
be worse off militarily and diplomatically if they continue to 
field this system. Certain actions clearly need to be taken or 
are already being taken and should be built upon. We need to 
better protect our forces and our allies directly from these 
missiles, and I believe that there should be consideration of 
increasing those capabilities, especially in the area of cruise 
missile defense. The United States and its allies must look to 
field systems into and around the region that can hold at risk 
key targets inside of Russia, including, but not limited to, 
the violating systems.
    The U.S. and NATO should continue to improve the readiness 
and presence of their conventional and nuclear forces. As the 
United States and NATO allies step up pressure, other actions 
should be considered in any review. When considering these 
options, however, we must realize that any policy has to strike 
the difficult balance between demonstrating to Russia that it 
cannot take its aggressive actions and expect that there will 
be no response, against ensuring that any actions taken to 
increase overall strategic stability--sorry--that any actions 
will increase strategic stability, not reduce it.
    Some examples of military actions I described in my 
testimony that could be considered are: increasing deployments 
of SSGNs [cruise missile submarines] in and around Europe to 
increase strike capacity of U.S. assets in the region; fielding 
unilaterally and in conjunction with NATO allies broader and 
more sophisticated rocket artillery systems on the territory of 
our eastern allies; speeding up the deployment of the LRSO and 
quickly developing a conventional cruise missile variant; 
transitioning the Air Force program office overseeing LRSO 
development into a joint program office; and considering how to 
develop or how we might field a ground-launch cruise missile 
similar to the one Russia has apparently deployed. While 
consideration of this option is not a violation of the INF 
Treaty, clearly, many would see this as the most escalatory of 
the options.
    Critical to any coordinated political, economic, and 
military set of actions that we take is that they are developed 
and carried out in coordination with our allies. Our alliance 
structure is key to our strength, and it is a comparative 
advantage we have over Russia. However, we also cannot afford 
to let NATO drift into paralysis, and must make it clear to our 
allies that inaction is unacceptable.
    I appreciate the attention that these subcommittees have 
paid to this important issue. I appreciate the chance to 
testify in front of you, and look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Scher can be found in the 
Appendix on page 49.]
    Mr. Rogers. Thank you very much for that statement.
    Mr. Wolfsthal, you are recognized for 5 minutes.

 STATEMENT OF JON BROOK WOLFSTHAL, FORMER SENIOR DIRECTOR FOR 
  ARMS CONTROL AND NONPROLIFERATION, NATIONAL SECURITY COUNCIL

    Mr. Wolfsthal. Chairman Rogers, Chairman Poe, Ranking 
Members Cooper, Keating, and other members, thank you very much 
for the opportunity and honor of testifying today. I will just 
note that I am also testifying in my personal capacity, and I 
will ask that my longer remarks be submitted for the record. I 
responded to many of the questions that the committee posed, 
but want to frame my remarks in three guiding principles that I 
think should influence any decision to take action in response 
to INF violation, and many of these are echoed, I think, by my 
colleagues here.
    First and foremost is anything we do must maximize alliance 
unity, both in NATO and in East Asia. We have to remember that 
this is not just an Atlantic problem, this is also something 
that affects Japan and South Korea.
    Second, we should make sure that Russia gain no military 
advantage through its violations. The Obama administration, as 
this program was under development, took steps in that 
direction. The deployment of this system, I think, does 
necessitate other steps to ensure that is the case, and I will 
recommend some in a minute.
    And then, third, I am very mindful, as I know my colleagues 
are, about the danger to crisis stability in Europe. We should 
be mindful not to do anything that makes that problem worse, as 
long as it does protect our security interests. We are in an 
action-reaction cycle with Russia. It doesn't mean that we 
shouldn't take action, but we need to understand how it will 
affect that dynamic, because the risk of conflict is real and 
growing.
    I want to include one last factor that I would not put in 
the same category as guiding principle, but I think is 
important, and that is that we should remember that arms 
control has never been a standalone purpose. It is a tool in 
our toolbox. The INF Treaty has allowed us to catch the 
cheating of Russia in time to take response, and it is one that 
we can use wisely if it is in the context of a larger policy, 
just as we are now with the new START [Strategic Arms 
Reduction] Treaty, which remains very much in our interest, and 
I don't believe should be an area where we think about 
countermeasures unless and until Russia fails to comply fully 
with that agreement.
    So to the meat of how to respond to this violation. First 
and foremost, I think our response should and can be 
diplomatic. We need to be much more forceful in how we confront 
Russia's actions and the damage--and be clear about the damage 
that Moscow is doing to the global nuclear landscape. We must 
move to share publicly with our allies and with the broader 
public information about Russia's violation that heretofore has 
only been shared with Russia and to our closest allies. I 
believe that the scale should now tip much further towards 
public release, because that will assist in the second step of 
this campaign, which is to put increased public pressure on 
Moscow.
    Why did Moscow cheat on the INF agreement as opposed to 
withdrawing from it, which it is legally entitled to do and 
they have mentioned for many, many years as a possibility? It 
is because they don't want to be responsible for the collapse 
of an arms control treaty. And so putting the onus directly on 
them, I believe, may be an effective way to cost them 
politically and diplomatically, and might guide some of their 
future actions. I don't suggest it is a be-all and end-all 
response, but it strikes me it is a clue to their thinking.
    I also think that we should be unwilling to allow Moscow to 
maintain its traditional role as a leader in the global 
nonproliferation and arms control community. That is a 
responsibility that you earn, one that we have continually 
earned, that Moscow has abdicated. And so putting pressure on 
Moscow in the context of the Non-Proliferation Treaty [NPT], 
the permanent members of the U.N. [United Nations] Security 
Council, the P5 fora, I think are all viable diplomatic 
measures.
    Third, I believe that we can and should take legal 
countermeasures in response to this violation. If the 
administration finds Moscow in material breach, we have the 
right to not only take countermeasures within the context of 
the INF Treaty, but also within the context of other arms 
control treaties that Moscow may care about more than our own. 
We care about the INF Treaty; Moscow clearly does not. Moscow 
cares a lot about other treaties, like the Open Skies Treaty, 
one that is not as deeply rooted in our security interests as 
in Moscow. And so, I think that we can work within the alliance 
structure to put pressure on Russia and deny them their rights 
to fully exercise their Open Skies Treaty rights in a way that 
might put additional pressure on them to come back in 
compliance with the INF. The benefit of this is also it puts 
our allies in NATO, their skin in the game. They also care 
about Open Skies, but they are not parties to the INF Treaty, 
and so showing that we going to take measures in one area may 
bring them to take action in others.
    I will sum up also in the military sphere. Some of what I 
will say echoes some of my colleagues' remarks. I do not 
support deploying land-based missiles in Europe in response to 
Russia's actions. I believe that we have many better options. 
We have the ability, and we already have the capability, to 
have air- and sea-launched cruise missiles in the European 
theater, but I think the risks of trying to push that avenue 
with our allies outweigh the benefits.
    I do believe that we should establish a joint program 
office for the new long-range standoff missile, one that would 
look into the possibility of a conventional variant to this 
nuclear program. I would actually go further. I don't believe 
that there is a very strong case for the nuclear-armed LRSO 
with a penetrating bomber, so I would redirect the entire 
program towards conventional, but I know that is an issue that 
we looked at both by the administration and this committee. But 
I would also make a virtue out of necessity, and make clear 
that we are doing this in direct response to Russia's 
violations, and to echo my colleague Bob Scher, that this would 
make it very clear that Moscow will suffer from both a security 
and a diplomatic standpoint as a result of their actions.
    So just to echo, I would say that we clearly do need to act 
in response to this, but we need to take care not to overreact, 
and to keep our security and the goals of stability and 
alliance management in mind as we craft our response.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Wolfsthal can be found in 
the Appendix on page 63.]
    Mr. Rogers. Thank you. I recognize myself for the first set 
of questions.
    Mr. Scher and Mr. Rose, in 2015, the Congress asked 
Chairman Dempsey to come up with a list of recommendations for 
the President as to how the U.S. should respond to the INF 
violations, and we also wanted to know what they were later, 
but do you know what those recommendations were that Chairman 
Dempsey made to the President? Did you support his military 
options, why or why not?
    Mr. Scher. Yes. Certainly we in the Office of the Secretary 
of Defense were well aware and, frankly, worked with the Joint 
Staff to develop those military options and did see them. I 
supported them all going forward as credible options in 
different cases. Honestly, my memory will fail as to which ones 
specifically I didn't support or did support, but I did think 
it was a very useful exercise and to make sure that a full set 
of options was put on the table and delivered for interagency 
discussion.
    Mr. Rogers. Do you know if any of them were exercised?
    Mr. Scher. Honestly, I believe very few were exercised, if 
any. Some of the very--the small pieces, but, in fact, in large 
part, many of--most of them, I believe, were not. There were, 
however, things that were done in conjunction with conventional 
forces in ERI [European Reassurance Initiative] and other 
places that did fulfill some of those pieces, but they were not 
necessarily directly related or--said to be directly related to 
the INF Treaty violation, but to the full suite of Russia 
aggressive action, which is, in fact, what we have always said 
we were going to do.
    Mr. Rogers. Mr. Rose.
    Mr. Rose. Yeah, I would just concur. I thought that was a 
very useful exercise. I was involved in that. I don't remember 
every single option, and a lot of that was classified. I would 
concur with Mr. Scher's statement that not many of the specific 
INF-related options were exercised, but they were, I would say, 
include--some of the other ones were included in that broader 
response to the Russian threat. And I think that is a really 
important point to make, is that we need to put this in a 
larger strategic context in which the INF is part of a larger 
challenge that Russia is presenting. As I mentioned in my 
opening statement, sir, I don't think the INF is a separate 
thing. I think it is part of this larger picture, and that is, 
Russia no longer sees the Euro-Atlantic security structure put 
in place in the 1980s and the 1990s as in its interests.
    Mr. Rogers. Thank you. At this time, if there is no 
objection, I am going to enter into the record a letter that 
Mr. Poe, Mr. Cooper, Mr. Sherman, and I sent to Chairman 
Dempsey in January of 2015 asking for a copy of these 
recommendations. We have never received it. And we have fenced 
off money in the NDAA [National Defense Authorization Act] last 
year from the administration until we do receive it.
    [The information referred to can be found in the Appendix 
on page 81.]
    Mr. Rogers. Mr. Scher and Mr. Rose, again, are you aware of 
the Chairman of the Joint Chiefs of Staff report in 2013 
stating that there are at least four validated military 
requirements that call for the U.S. to use military 
capabilities prohibited in the INF?
    I am going to include a copy of this unclassified report 
for the record as well.
    [The information referred to can be found in the Appendix 
on page 83.]
    Mr. Rose. Sir, I didn't become assistant Secretary until 
late 2014, so I wasn't directly involved on the INF work 
attending the IPCs [Interagency Policy Committees]. I am sure 
it was there, but I don't recall that specific document.
    Mr. Rogers. Okay. Mr. Scher.
    Mr. Scher. I also did not work on the document, but I am 
aware of it, but wouldn't profess to be an expert on the 
contents.
    Mr. Rogers. And, Mr. Scher, you heard Mr. Wolfsthal make 
reference to the Open Skies Treaty. Why did the Department 
believe it was necessary to recommend that Russia was also 
violating the Open Skies Treaty? I understand that both the 
Joint Staff and OSD [Office of the Secretary of Defense] 
jointly made that recommendation, and why was there no 
determination ever made?
    Mr. Scher. Honestly, I cannot speak to the why not a 
determination was made, in part, because actually in the way 
that the OSD system was set up, it was not within my purview, 
but also that is sort of--you know, but I do understand that 
that was the determination from the Department and that was the 
recommendation put over. I would have to leave it to others to 
go into the details of any conversations about why it wasn't 
specifically brought up.
    Mr. Rogers. Okay. Thank you. I yield to Chairman Poe for 
any questions he may have.
    Mr. Poe. I thank the chairman.
    The Russians have a pattern, and I think because of their 
pattern and our reaction or lack of reaction, we are living in 
fantasy land if we think the Russians are ever going to come 
and comply with this treaty. In 2008, the Russians violated the 
treaty, and the administration told Congress in 2011 that the 
treaty was violated, and then it took--in 2014, 2015, and 2016, 
the State Department confirmed that the treaty was violated. 
And so here we are in 2017, with all of the other actions by 
the Russians; 2008, we might all remember, they invaded 
Georgia, then they went into Crimea, and then they went into 
eastern Ukraine. And so they are violating the treaty at the 
same time they are being an aggressor nation and taking 
territory that belongs to other countries, and nothing has 
happened to any of that.
    So, that is the pattern of the Russians. And here we are in 
2017, 9 years after the violation, and we are talking about, 
okay, finally we are going to do something about this, but 
there are still no solutions; nothing has been done to react to 
this aggressive tendency by the Russians.
    And I agree with you, Mr. Rose, that we should try to work 
on solving this in a diplomatic way, that is always the 
ultimate answer to getting this, but I don't think the Russians 
are--they are calling our bluff about this.
    So what specifically can Congress do or the administration 
or the Department of Defense do to get the attention of the 
Russians, or are they just going to keep being in violation of 
this treaty?
    Mr. Rose. Thanks very much for that question, sir. I would 
say a couple of things. One, we have taken some actions with 
our allies, specifically at the Warsaw Summit, to respond to 
Russian aggression. We have the enhanced readiness initiative. 
And Bob Scher, in his capacity as the NATO high level group 
chairman, the NATO group responsible for nuclear policy, has 
done a number of things to make sure that the alliance has the 
nuclear capabilities to conduct operations should deterrence 
fail.
    I agree with you, we have tried diplomacy. As I outlined in 
my statement, there was almost 4 years of diplomacy beginning 
in 2013 with the objective of trying to bring Russia back into 
compliance. Those diplomatic efforts have not worked. So that 
is why----
    Mr. Poe. Let me reclaim my time, because I only have a 
total of 5 minutes.
    Mr. Rose. Yeah.
    Mr. Poe. And you have a lot of information. We have read 
all of the statements.
    Mr. Rose. Okay.
    Mr. Poe. Meanwhile, though, the Russians continued the 
deployment--or development and deployment, maybe, of the 
violation cruise missiles.
    Mr. Rose. Yep.
    Mr. Poe. And so we are at a place now where all of this has 
not helped----
    Mr. Rose. Right.
    Mr. Poe [continuing]. Hasn't solved the problem.
    Mr. Rose. Right.
    Mr. Poe. And I understand, I can even understand the reason 
the Russians are not in compliance. That is pretty clear to me. 
So what are the options of the U.S. right now?
    Mr. Rose. I think there are a number. Specifically, I think 
developing a long, conventional variant of the LRSO is very, 
very important. And I----
    Mr. Poe. So we can have that development and----
    Mr. Rose. Well, we have a nuclear capable version.
    Mr. Poe. But not a conventional?
    Mr. Rose. Not a conventional. But let me commend Chairman 
Rogers and his committee, because they have been pushing for a 
conventional variant. So that is number one.
    Number two, we can make available to our allies strike 
capabilities, JASSM-ER [extended range], but also Tomahawk.
    And, three, I think NATO should be developing some limited 
cruise missile defenses to protect key command and control 
nodes, ports, and airfields. So those are three things that I 
would do.
    Mr. Poe. Okay. Would you agree or not that we are more 
concerned about the Russian violation than maybe even our NATO 
allies are concerned about it?
    Mr. Rose. I think some of our NATO allies. It depends. I 
mean, some NATO allies are more concerned than others.
    Mr. Poe. Last question for all three of you. Should the 
United States suspend our portion of that treaty?
    Mr. Rose. I would not do it at this moment.
    Mr. Poe. All right. Mr. Scher.
    Mr. Scher. I am not sure that gets us any benefit that we 
can't accrue other ways, so, no.
    Mr. Poe. Okay. Mr. Wolfsthal.
    Mr. Wolfsthal. I think we can take countermeasures under 
the rights afforded to us in international law without 
withdrawing or suspending from the treaty.
    Mr. Poe. Thank you. I yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the ranking member, Mr. Cooper, for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I would like to follow 
up on Chairman Poe's line of questioning regarding our European 
friends. The primary threat of these INF Treaty violations is 
to Europe, right? And I am worried we care more about this than 
our European friends do. Is there any information you can 
supply us with that shows that they really do care and are 
willing to pay and willing to make defense adjustments?
    Mr. Scher. So I think we have--I mean, we have seen that 
all of the NATO allies are actually--almost all of them are 
making progress towards getting to a 2 percent goal, or have 
ceased falling in terms of their defense budgets. That is not 
the strongest statement I would like to be able to say, and it 
certainly is insufficient.
    I do think that your general assessment that there are a 
lot of European nations who don't take this as seriously as we 
do is correct. I also think it, unfortunately, is a political 
issue in many places where there are some people who do--within 
countries, do take it seriously and some other members of that 
same governing coalition who have a harder time with it.
    It is our job to lead NATO. We need to make sure that NATO 
is part of this answer, but we need to lead it as well. And I 
think one of the things that was stated in Mr. Wolfsthal's 
testimony, in fact, trying to ensure that we do as much as we 
can to make it clear that this information that we have, the 
intelligence we have, is absolutely right and correct and 
bringing people onboard. So we can wait in terms of doing 
something, but we can't wait forever.
    Mr. Wolfsthal. If I may. So we have not been effective in 
our international diplomacy, because we have not been able to 
openly share the information we have about this violation. I 
think that would dramatically help. It would make it hard for 
Europeans to hide behind the ``We are not sure'' excuse, even 
though privately we have shared some of this information and 
they are convinced. But I think Mr. Scher's point, and I think 
Frank Rose would back me up on this, the Europeans are 
unwilling to get onboard any sort of INF response, in part, 
because they are not members to the treaty; and two, because we 
have not been clear in what it is we are trying to do. What are 
we asking them for? Nobody is going to give the United States a 
blank check in this environment, and so we need to determine 
what our position and policy should be, we need to work within 
the NATO context and keep them united, and then, I think, we 
have a very good chance of actually pushing back on the Russian 
violation.
    Mr. Cooper. You don't have to be the signatories of a 
treaty to be the primary victims of a breach of the treaty. So 
that is kind of an illogical----
    Mr. Wolfsthal. It is true that that is not an excuse. I am 
just trying to explain what we have heard from them. In part, 
however, we need to recognize the Europeans have already been 
targeted by Russian nuclear weapons even without the INF 
Treaty. Russia can strike everything in Europe with their long-
range systems. What this violation actually allows them to do 
is use these systems against Europe and then have more weapons 
to strike at the United States. So it is not purely about 
Europe.
    Mr. Cooper. Which countries in NATO care most about this 
violation?
    Mr. Rose. Well, sir, I don't want to get in in an open 
session too much into that, but I think it is fair to say our 
eastern allies tend to be more concerned about the threats from 
Russia. And what I would also add is that, as Assistant 
Secretary, one of my primary objectives in 2015 and 2016 was to 
try to get as much intelligence information available--made 
available to allies. And what I would say is this: We are in a 
much better position now than where we were 2 years ago with 
the allies, and I think there is a very good foundation for the 
new administration to build upon.
    Mr. Cooper. Final question. Is our reluctance to state the 
name of any NATO ally in this hearing proof of the success of 
Russian disinformation campaigns in Europe that makes this 
issue a hot potato politically?
    Mr. Rose. Well, sir, I don't necessarily think it is 
Russian propaganda. I think it is a concern that many of these 
countries cannot verify this information on their own, because, 
as you know, this is some of our most sensitive sources and 
methods, number one. And number two, they have so many other 
challenges with the Russians. So I would not say that.
    Mr. Scher. I would just add, I think, my belief is we will 
have a better chance to pull together as an alliance if we 
don't single people out individually. We want to do everything 
we can to help those within each of these countries who 
understand the problem fight their battle against other voices 
within their same countries who are having a harder time, and 
singling people out won't help build that alliance cohesion.
    Mr. Wolfsthal. I would just point out, I wouldn't put this 
in the same category as what we are concerned about in 
interfering with elections and fake news. Russia has been 
stating, falsely, for many years, that the United States is in 
violation of the INF Treaty. We abide by our legal processes 
and ensure that we are, in fact, complying, but that muddying 
of the waters has been successful, in part, because we have had 
to keep much of this information classified. It is one of the 
reasons I suggest we now err on the side of release.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Rogers. The Chair now recognizes Mr. Keating for 5 
minutes.
    Mr. Keating. Thank you, Mr. Chairman. It is great to 
welcome Mr. Rose, who comes from America's hometown in 
Plymouth, Massachusetts, and I think whose folks are still in 
Cape Cod, so welcome. But I want to just--we have said a lot 
about military response, we have touched upon some of the 
diplomatic response, but, Mr. Scher, in your remarks, your 
opening remarks, you talked about also economic response to 
this. And I would like to ask the whole panel, since we were 
just broaching on this, and I think it is important, what kind 
of economic responses, specifically, do you think we could 
undertake? I will start with Mr. Scher, since you brought it up 
yourself in your opening statement.
    Mr. Scher. I did, although that is a tried and true tactic 
of the Department of Defense to make sure that the other parts 
of the interagency are represented and get a voice. 
Fortunately, you have created this panel with that voice in 
mind. So I am going to defer to my State Department--my former 
State Department and former White House colleagues.
    Mr. Rose. Mr. Keating, what I would say is two things. 
First, there are very limited economic options on the table, so 
they would be more symbolic. I would say because of the Ukraine 
sanctions, that has basically sucked all the air out of the 
room, number one. Number two, we would likely need to implement 
these sanctions on our own. Most of our European and other 
allies don't have the legal mechanisms available to impose 
sanctions for the violation of the INF Treaty.
    Mr. Wolfsthal. I would echo Mr. Rose's testimony. I think 
there are some limited options that we could choose if we are 
willing to have these be unilateral sanctions, and I think they 
can affect not only the Russian entities involved, but there 
are other countries who provide direct support to these 
programs. I won't get into that in this session, and I no 
longer have access to classified information, but I think there 
are some other opportunities there that bear digging into, and 
happy to talk about that off-line.
    Mr. Keating. I also want to touch on the possibility--and I 
hope it isn't a possibility--that, indeed, you know, actions 
like this could be used later on as creating a bargaining chip 
for other negotiations, and what comes to my mind is Crimea, 
and the danger, I think, in having this activity where they 
take this action, and then all of a sudden in other 
discussions, having them say, well, we are going to stop the 
suspension of this and conform to it in exchange for something 
else. I look at that as a terrible downward spiral that would 
have great implications. But can you comment on that kind of 
reaction or the use of this, you know, under those 
circumstances?
    Mr. Rose. Mr. Keating, that is a really good question, and 
it leads me to another point. I am not trying to dodge your 
question, but I think what it tells me is that we really need 
to have strategic stability discussions with the Russians. I am 
known, both publicly and privately, for being very tough on the 
Russians. However, we are not talking to them about the 
fundamental issues associated with strategic stability. So one 
of my key recommendations to the new team is that they 
initiate, not an arms control negotiation, but a set of 
discussions focusing on better understanding their strategic 
concerns and the Russians better understand our strategic 
concerns. I think that is very, very important.
    Mr. Scher. I think, Congressman, the only thing I would add 
is that your caution is well-taken. When you are looking at 
this as a broad set of issues, as you have to, and then a broad 
strategy with Russia, what we need to make sure we don't do is 
fall into the trap of if they do something bad, then we give 
them something to return to the situation it was before. That 
is a net win for them.
    Now, if you look at it in a, you know, specific context, 
you might be willing to do that in order to gain overall, but 
it is always a concern about what we do. We have seen that 
pattern of behavior in North Korea, we have seen it all over 
the place, and it is something that we do need to watch for 
and, frankly, it is something, I think, we need to make sure 
that our alliance watches for as well. And simply by 
highlighting it, we actually go a long way to not letting that 
go down that path.
    Mr. Wolfsthal. I agree with those comments. I would remind 
people there was a suggestion, I can't remember if it was 
during the transition or early in this administration, that 
perhaps we would trade a new round of arms control with Russia 
in exchange for lifting sanctions over Crimea, and it doesn't 
work that way. We have to prioritize. We know that Russia is 
suffering as a result of these sanctions. I think it is one of 
the reasons you have heard us talk about not wanting to link 
INF directly to the Crimea sanctions, and that is something we 
are just going to have--we have to chew gum and walk at the 
same time.
    Mr. Keating. That is why I highlighted the question. And I 
wanted Russia to know that this Congress realizes the dangers 
in doing that. And I think I can speak for most of my 
colleagues, they are not going to go down that road.
    I yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman. Mr. Scher, I 
will direct this first to you. You know, I heard, I think, 
pretty compelling indications from you and Mr. Rose 
specifically that it was going to be very difficult to bring 
the Russians back into compliance, because obviously, they have 
already deployed systems in contradiction to that, and it seems 
like a real challenge; but in the interests of open pursuit 
here of that goal, Principal Deputy Under Secretary of Defense 
Brian McKeon testified on two occasions that DOD [Department of 
Defense] was going to recommend three categories of military 
response options to convince Russia to return to compliance 
under the treaty. These included active defenses and counter-
force and countervailing military capabilities.
    Mr. Scher, could you give me some examples of these 
capabilities as he may have been indicating?
    Mr. Scher. Certainly. I think--so in the active defense 
realm, that is--the majority of that is pointed at, you know, 
cruise missile defense, specific missile defense around 
specific areas, and I think that, as I said in my testimony, 
the written testimony, cruise missile defense, I think, is 
something that we don't do as good a job on as we would like 
to, as I think we should, and we need to kind of look at that 
as well as, you know, missile defense. We should not, however, 
get caught in the trap of believing that there is ever going to 
be enough missile defense, because it cannot ever get to the 
point where we can outspend our adversary of missiles versus 
missile interceptors; but we can get to the point where we can 
protect critical infrastructure, and that is something I think 
we might want to take a look at doing more.
    The countervailing--the two other pieces are strike assets, 
and one is the concept is looking at how can you take out the 
offending--the actual offending, you know, system, and, 
certainly, we have many forces in and around the region that 
can do that. Then there is also saying we don't have to go just 
after the offending system, but we can go after other things 
that Russia holds of value, and obviously, those same effect--
same that we have, you know, in terms of everything air-, 
ground-, sea-based, can go after those assets. And I think what 
all of us recommend, certainly I know I recommend it, is that 
we need to continue what we have done in terms of the European 
Reassurance Initiative, something that Congress has funded a 
number of years in a row and I hope continues to fund, so that 
we can move more forces more regularly in and around the 
eastern parts of our NATO alliance, and that we can bring 
firepower there, as well as encouraging our allies to step up 
to the plate and purchase more systems that can be integrated 
into the NATO alliance.
    Mr. Franks. Mr. Rose, I am just taking off of what Mr. 
Scher said. Did any of these capabilities that Mr. McKeon 
indicated, did they really ever get developed to any extent?
    Mr. Rose. Well, you know, some of these capabilities, for 
example, JASSM-ER, extended range JASSM, we are deploying that, 
and that gives us the ability to hold conventional targets at 
risk with conventional weapons.
    With regards to some of the nuclear things that we talked 
about for deterrence that we are procuring, the duel-capable F-
35. So some of these things----
    Mr. Franks. We are on our way in some of those areas?
    Mr. Rose. Yeah. Some of those areas.
    Mr. Franks. But does it remain your opinion that it is 
going to be extremely difficult to pull Russia back into 
compliance?
    Mr. Rose. Sir, I think it is going to be extremely 
difficult to pull Russia back into compliance.
    Mr. Franks. Well, the reason I emphasize that, obviously, 
is if that is our stated conclusion, then it certainly puts a 
great deal of emphasis on the question of how long we want to 
remain tied to its restrictions as well.
    Mr. Rose. Sir, can I just add, I just want to reemphasize 
the importance of alliance unity. And as the new administration 
moves forward, I would think that whatever they do, they want 
to be in close coordination with our allies in both Europe and 
Asia.
    Mr. Franks. All right. Final question, and I will start 
with you, Mr. Rose. Do you think that--I mean, sometimes I have 
an opinion on the questions I ask, as you might imagine, but 
has Russia violated the Open Skies Treaty?
    Mr. Rose. What I would say, and I don't have access to 
classified information, if you look at this year's--or last 
year's compliance report, we had many compliance concerns about 
Russian implementation of the treaty.
    Now, my understanding is that the administration is working 
with allies to resolve those compliance concerns, but we are 
not there yet. So we have certain--I wouldn't say it is a 
violation, but we certainly have compliance concerns.
    Mr. Franks. And, Mr. Scher, would you characterize it that 
way?
    Mr. Scher. Yes. I think I always like to take my lead from 
the State Department colleagues about compliance issues, but it 
is certainly a concern for the Department of Defense.
    Mr. Franks. Well, Mr. Chairman, I just want to add my list 
to those concerns. So with that, I will yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
Mrs. Davis from California for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all for 
joining us. Just taking from the discussion about NATO, and I 
am sort of trying to get a sense of where it falls on a range 
of issues that we have with our counterparts, a few of us will 
actually be joining them in a few hours overseas, and so I just 
wanted to get a sense.
    Mr. Scher, you said that you would prefer to err on the 
side of releasing some of the information so that they could 
have a greater sense of what the challenges are. Is that 
something that--or Mr. Scher--Mr. Wolfsthal--I am sorry. Mr. 
Wolfsthal, I think you said that. I am sorry.
    Mr. Wolfsthal. If it sounded smart, I usually----
    I do think that we need to be more public about the 
information that we have and we need to be sharing it more 
widely within NATO. There is always a tension between not 
burning a source with inside the intelligence community, and 
revealing that information, because it will allow the Russians 
to take countermeasures and we won't have that source anymore. 
But I think now, particularly with the system reportedly in 
deployment, there is much more information, and even visual 
information that can be deployed diplomatically in the alliance 
and just as a public diplomacy campaign that can be very 
effective in galvanizing some support within NATO; but I also 
think we have to do that with the thought in mind what is it we 
want to do once we get that support, and so they have to be 
linked together.
    Mrs. Davis. Yeah. I think part of my concern was in having 
those discussions, if they were appropriate, that it also might 
mean that we would take some actions in terms of deploying in 
Europe, and whether or not that would create some feeling of 
confidence in what we are doing as opposed to a real pushback.
    Mr. Wolfsthal. I think that is exactly right, ma'am, and I 
think you have heard all of us talk about there is a great 
danger in the idea that we would move or suggest that we would 
move to deploy ground-based strike capabilities in Europe in 
response to INF. First, I don't believe, and I, again, have 
been out of the administration for several months, that the 
military believes that that is a military necessity or 
requirement. Without that, then I think we would risk alliance 
unity, because some countries might be willing to support it 
and others will be very much opposed. And having, I think, all 
of us work through the decision in the 1980s to deploy both 
GLCM [ground launched cruise missile] and Pershing II, I won't 
say it nearly broke the alliance, but it fed into the Soviet 
strategy of weakening it, and I don't think we need to do that 
at this point.
    Mr. Rose. Ma'am, can I just add on that point, I am not 
necessarily opposed to ground-based capabilities, but I think 
there are a couple of questions that you want to ask before you 
move down this road. One, do we need this to meet our military 
requirements? Two, is it cost-effective? And three, where are 
you going to deploy it? And having negotiated a number of 
basing agreements, I understand how challenging it is to put 
capabilities in foreign governments. And I----
    Mrs. Davis. I guess I would ask--I am sorry, because my 
time is running out. I would just add, I mean, and is it the 
appropriate response to their violation of the INF?
    Mr. Rose. Ma'am, I would not recommend doing a GLCM in 
response. I think we can do what we need to do with sea- and 
air-launch capabilities.
    Mrs. Davis. Thank you, Mr. Rose. Can I ask you, and I hope 
you can feel free to be forthcoming, does the State Department 
now have the appropriate staffing level and expertise to deal 
with this issue as well as other issues that are out there, 
given the personnel shortfalls, and obviously the desire to 
slash the State Department budget?
    Mr. Rose. Ma'am, let me say this: I thought we had a good 
team when I was there, but we have a problem getting younger 
staff into the State Department. And this is a real problem, 
because we are losing expertise and we are not training the 
next generation. I gave a plea to the transition team when I 
left, is we have got to find a way to get younger people into 
the State Department. So previously, I thought we had a good 
team, but that was the concern that I had, is that we did not 
have a mechanism to bring junior staff, and we have a dearth of 
people who understand these issues.
    Mrs. Davis. Thank you. Mr. Wolfsthal.
    Mr. Wolfsthal. If I can just make a point, I will be very 
quick. I was very honored in the administration to actually run 
an interagency process. I would convene Deputy Assistant 
Secretaries of State, Assistant Secretaries of State, and we 
would prepare materials up to the Deputies and the Secretaries 
to make decisions.
    This administration has not yet even appointed people at 
those levels in the Defense or State Department. There are 
people available, and I think it is to our detriment to not 
have a fully staffed interagency in something that I think--it 
is not surprising that they may be a little slow off the mark, 
but it is something that worries me in terms of our ability to 
respond.
    Mr. Scher. Just to go back to your other point, even though 
I don't believe right now we need to field ground launch cruise 
missiles, I don't think it is proper for us to take it off the 
table, nor do I believe anyone is suggesting it. It is a real 
capability with real effects. If it didn't have real effects, 
the Russians wouldn't be fielding it. And I don't think it is 
something we should necessarily take off the table, because, 
depending on the combination of assets, it can be very 
effective, and can be very cost-effective, but it has got to be 
looked at in broad case and we have got to do it with our 
alliances. I don't think we are there yet, but as you noted in 
my testimony, I think it behooves us to take a look at it, and 
I think Russia will pay attention to that.
    Mrs. Davis. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Alabama, Mr. Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman. Mr. Scher and Mr. 
Rose, what are some of the factors the United States should 
consider prior to the extension of the New Strategic Arms 
Reduction Treaty?
    Mr. Rose. I would say a couple of things. One, is it in the 
interest of the United States to maintain the New START Treaty. 
My view is yes. You know, despite all the concerns that we have 
with INF, I believe it is in our interest to maintain the New 
START Treaty, because it puts limitations on Russian forces, 
and furthermore, it provides us insights we would not 
necessarily get from our national technical needs. But the 
bottom line is, are they in compliance. And two, does it serve 
our national interest?
    Mr. Brooks. Mr. Scher.
    Mr. Scher. I would mirror exactly what was said, but 
obviously my focus is on, is it in the U.S. national interest? 
I believe it still is, as long as they are not violating, and 
as long as we continue to have the ability to inspect and do 
other pieces, so, worthwhile.
    Mr. Brooks. All right. A follow-up question for Mr. Scher 
and Mr. Rose, but on a different treaty. Now, we have heard 
suggestions from some corners that we should try to 
multilateralize the Intermediate-Range Nuclear Forces Treaty. 
According to unclassified reporting, Iran has roughly several 
hundred intermediate-range ballistic and cruise missiles that 
would be prohibited and have to be eliminated if Iran came 
under the Intermediate-Range Nuclear Forces Treaty. Similarly, 
Pakistan has hundreds of missiles that would have to be 
eliminated--or limited by the treaty. China has at least 1,500. 
In what world would these countries agree to just give up these 
missiles? That is the first question. And, second, is there a 
risk that multilateralizing the INF will only give Russia a 
convenient excuse for its illegal behavior?
    Mr. Rose. Sir, what I would note is that in 2007, the 
United States and Russia proposed the idea of multilateralizing 
the INF, so it is not a new issue. However, I would caution, I 
would say, one, we should not entertain this idea until Russia 
comes back into compliance with its obligations under the 
treaty. And secondly, and I think you hit the nail on the head, 
it would be very difficult to get North Korea, Iran, Pakistan, 
China, and India to agree to give up their ballistic missiles. 
So I don't think it is very much a viable idea at this point.
    Mr. Brooks. Mr. Scher.
    Mr. Scher. Yeah. I don't think that is the world in which 
we live right now.
    Mr. Brooks. Mr. Wolfsthal, they were both briefer than I 
anticipated they might be. Would you like to comment on either 
of those two sets of questions?
    Mr. Wolfsthal. I am as surprised as you are, sir.
    On the multilateralization, I agree; I think it is not 
realistic to think that we will have a multilateral treaty that 
bans INF. I guess I would frame my response the following: What 
we are seeing Russia do is not just an action. They are 
reacting to the fact that we have developed tremendous military 
capability to protect our allies, and that they feel that they 
have not been able to do the same.
    We have now seen them come online with both air- and sea-
launch cruise missiles, as they demonstrated in Syria. And so 
while I think that they are not likely to come back into 
compliance with INF, I think we do need to be talking to them 
at a military level, and at a political level, to understand 
how we can reduce the risks of unintended and accidental 
conflict, and that could involve some agreement regarding how 
and when we would deploy certain capabilities in response to 
how and when they deploy certain capabilities.
    I am not suggesting we validate what they are doing, 
because they have violated a treaty that has been ratified by 
the United States and there should be consequences for that, 
but we need to understand the broader context in which that is 
happening.
    Mr. Brooks. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentlelady from Nevada, Ms. Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. I am glad we are 
holding these hearings today about Russia's violation of the 
INF Treaty, because given the administration's potential ties 
to the Russian administration, I think it is very important 
that the congressional committees on Foreign Affairs and Armed 
Services keep a close eye on our relationship with Russia and 
what is happening in this area.
    We have heard a lot from all of you on the panel about the 
need for alliance unity. In fact, Mr. Rose and I think Mr. 
Wolfsthal opened with that. That was your number-one 
recommendation, that we do it. But I am afraid that we are not 
going to be able to do it, given the set of circumstances that 
exist today. Just in the last 70 days of the Trump 
administration, we have had our allies disparaged and insulted; 
we have had conflicting information and opinions and positions 
come out of the administration on where we stand on NATO; we 
have had a Secretary of State who said he doesn't even want the 
job, his wife told him to do it; you mentioned, yourself, 
dozens of empty appointments at top levels, so I don't know who 
is going to be having these discussions that you think we need 
to have; and we have got a State Department budget that is cut 
by 30 percent.
    Would you comment on that, whether you are even optimistic 
that we can do anything about holding anybody accountable, or 
set a new set of standards moving forward? All three of you.
    Mr. Rose. Well, ma'am, let me just say, every 
administration, it takes a little bit of time to get up. So 
let's hope that over the next couple of months, we see some 
solid appointments by the President. And I am actually 
encouraged to see some of the people at the Pentagon who I have 
worked with in the past. But the bottom line, I will come back 
to your point: Our allies are an asymmetric advantage of the 
United States. It is what makes the United States the United 
States. It is something Russia and China don't have. So we, in 
our foreign policy, should be doing whatever we can to maximize 
the benefits of those alliances, because those alliances 
provide us so many benefits from a diplomatic perspective, but 
also a military perspective.
    Ms. Titus. I couldn't agree more.
    Mr. Scher. You have listed an appropriate and a large set 
of problems that we have to face to overcome to get the 28 
nations of NATO to agree to things. I would suggest that we 
have always had a lot of things to get over to get 28 nations 
to agree to pretty much anything, so I hold that while it 
sounds daunting, I still hold out some hope. And to emphasize 
the point that Mr. Rose made, we are better off with a less 
good solution in 28 countries working together than with the 
perfect solution and not having the alliance held. You have to 
believe--it is, as Frank said, an asymmetric advantage. If 
Russia didn't resent the fact that we had this and didn't think 
this was a plus on our side, they would not work so hard to try 
to divide it, and we can't let that happen.
    Mr. Wolfsthal. I am an eternal optimist, and so I believe 
that things that are readily self-apparent, like maintaining a 
strong alliance is helpful to the United States, will take root 
and be endorsed and blessed in any administration. And we have 
seen evidence in the past of skepticism when it comes to other 
things that I believe are self-evident; cooperative threat 
reduction and helping to eliminate stocks of nuclear, chemical, 
biological materials around the world was something quite 
controversial in the early Bush administration. They came to 
embrace that. So I think there is hope, but I think we have to 
keep reminding the body politic of exactly why we have NATO and 
why it benefits us.
    Ms. Titus. Thank you. All three of you mentioned the word 
``hope,'' so we now have a foreign policy based on the concept 
of hope. I hope it works. Thank you. And I yield back.
    Mr. Rogers. I think the gentlelady. The Chair now 
recognizes the gentleman from Virginia, Mr. Garrett, for 5 
minutes.
    Mr. Garrett. Thank you, Mr. Chairman. I will just start 
with Mr. Rose. It is safe to say, based on the cost to procure 
and develop, that the IRBMs [intermediate-range ballistic 
missiles] and MRBMs [medium-range ballistic missiles] that we 
discussed and addressed in the INF, are cheaper and more 
readily available than an ICBM, correct?
    Mr. Rose. I think that is a fair assessment, sir.
    Mr. Garrett. And it is also fair to say, based on the 
Pershing platform and the Griffin platform and Soviet-era 
platforms, that the technology to fill that gap if we were to 
essentially flip the switch to off exists today, correct?
    Mr. Rose. That is correct, sir.
    Mr. Garrett. And we could also presumably upgrade that 
Griffin system, that land-based Tomahawk cruise missile that we 
abandoned with the INF to the Block IV capability pretty much 
with the flip of a switch, correct?
    Mr. Rose. I would have to go into the specifics, but I am--
--
    Mr. Garrett. Well, and we can't go into but so many 
specifics, but----
    Mr. Rose. Yeah. Yeah.
    Mr. Garrett. In the theoretical abstract world.
    Mr. Rose. Theoretically, absolutely.
    Mr. Garrett. So I am looking at a New York Times article, 
which is entitled ``Russia Deploys Missile, Violating Treaty, 
Challenging Trump,'' specifically addressing new Russian land-
based cruise missiles. And, again, I would source it from The 
New York Times. We don't have any current capability, nor do 
our allies in the European theater, to match this. Am I 
correct?
    Mr. Rose. Sir, what I would say is we don't have ground-
launch capabilities with a range between 500 and 5,500. Sorry. 
However, we do have a series of capabilities, air- and sea-
launch capabilities, that I can believe--I believe holds at 
risk what the Russians view as critical, and I think we need to 
continue to improve those capabilities. I would just add, I am 
not opposed to a GLCM.
    Mr. Garrett. Let me--I am not hostile to you, but I have a 
finite amount of time. We have no idea what our generation 5 
aircraft can do against the S-300, S-400.
    Mr. Rose. I don't know.
    Mr. Garrett. We just don't know. So we think we have a 
capability. I guess what I am ultimately driving at is, if the 
multilateralization of the treaty is not an option, because 
people who want to be ICBM players can't afford it, and the 
Soviets can essentially replicate capabilities for cheaper by 
virtue of violation of this treaty, and there are no 
ramifications today, right? The Obama administration addressed 
the potential deployment as early as 2014, now the present 
administration has a quandary, is it not in our best interest 
to encourage our European allies to do what was suggested 
earlier, and that is start picking up some of their own weight, 
as they are not signatories to the INF Treaty, and the United 
States is already carrying a lot of water for a lot of people 
in a lot of places.
    Mr. Rose. Sir, I think there are things that our allies 
should do, specifically, purchasing JASSM-ER and Tomahawk. On 
ground-launch cruise missiles, my point is this, do we have a 
military requirement? Is it cost-effective, compared to, for 
example, developing a conventional variant of the LRSO, and 
where would we deploy it? I want to emphasize that, because 
this is controversial in some allies within NATO, and we don't 
want to give the Russians an opportunity to create mischief.
    Mr. Garrett. Mr. Chairman--Mr. Scher, am I pronouncing that 
correctly? I had the opportunity to speak with the defense 
minister in Germany in February, and very gently and tactfully, 
I would like to believe, suggested that that 2 percent 
expenditure on defense was a welcome addition that the Germans 
as they are aware, are the long pole in the European defense 
tent. You know, we can spend money on this, or our allies can 
spend money on this, ironically having the benefit, 
potentially, of helping us help them, if you don't mind me 
grabbing from the movie Jerry Maguire. What is to stop our 
allies from taking this responsibility, and what is the best 
way to convey this request in a diplomatic and tactful manner 
so that we can live in a safer world?
    Mr. Scher. I think the key is, certainly--and nobody--you 
know, in my past job, and I think all of us made the point to 
the European allies that they had to start pulling more weight 
than they had been doing previously. Two percent is a nice 
figure. It is a good talking point. It is not the extent of 
what we need them to do. In some cases, I would argue some 
countries need to do more; in some cases, maybe they can do 
less, but do more elsewhere.
    Having said that, it is a nice target, frankly, and a 
target that most of the NATO countries are not meeting.
    As much as it would be great to be able to focus only on 
the violation, I think we have to look at the Russian 
aggression writ large, use that as the piece to make it clear 
to our allies, both in Western Europe and in Eastern Europe, 
that there is a concern and a problem. The Eastern Europeans 
understand it inherently; the Western Europeans have conflicts 
within their own populace. We need to help that process along 
and get them to spend more and do more. If it is ground launch 
cruise missiles, maybe, who knows, but more has to be done.
    Mr. Garrett. I just hope the Russians don't force their 
hands sooner rather than later.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Washington State, Mr. Larsen, for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman. I apologize. I have a 
little bit of a variety pack of questions, but certainly 
related to the big topic we are talking here.
    But some--Mr. Wolfsthal, I will start with you. You 
mentioned--we have all talked about the Open Skies Treaty. This 
is not a bilateral treaty, right? So why is it important, 
therefore, to consult our allies in any discussion about using 
the Open Skies Treaty with regards to Russia?
    Mr. Wolfsthal. So we have been working with our allies over 
our concerns regarding Open Skies and Russia for many years. I 
think that has been a very fruitful exercise. It has been--as 
we have been able to work with them so they understand our 
concerns, and we have also supported our allies when Russia has 
been selectively complying in ways that affect them.
    My suggestion, that we think about countermeasures for INF 
violations in the Open Skies context, was a response, in part, 
to the fact right now, Europe aren't members to INF but they 
are members to Open Skies. And so if we wanted to try this 
approach, we would have to coordinate in advance with the 
allies. But I think we have a firm legal basis, both within the 
Open Skies and the INF context, that that might have some 
potential to actually motivate them a bit more. Because we have 
to view all of these treaties as a network. They are designed 
to create stability and predictability in the European theater. 
Russia's undermining them means that they cannot, and that is 
something that directly affects us and our European friends.
    Mr. Larsen. Mr. Rose, do you have any comment on that?
    Mr. Rose. I would agree with my former colleague from the 
NSC [National Security Council].
    Mr. Larsen. You don't have to anymore, you know.
    Mr. Scher. It is fun.
    Mr. Larsen. Mr. Scher, could you talk a little bit about 
this question that came up a couple of days ago at our HASC 
[House Armed Services Committee] hearing with General 
Scaparrotti, the request to have a full division, an additional 
division in the European theater, and how that--do you have 
thoughts from your past life in how that would fit into the 
signaling part of deterrence as we have the capabilities here, 
or does it? What would the use be other than to have 10,500 
more troops, U.S. troops, in the European theater?
    Mr. Scher. So I will admit to have not gone--not done my 
homework to go back and see what General Scaparrotti proposed.
    Mr. Larsen. Sure.
    Mr. Scher. But I think you need to have enough forward 
presence of U.S. forces to demonstrate clear commitment to the 
alliance, and deterrence to the adversary.
    There is a point at which you would like to have all the 
forces you could ever imagine and want there, but you won't be 
able to because there are commitments that we have elsewhere. I 
would--I think that having a maneuver division--the capability 
to have a maneuver division in Eastern Europe on a short amount 
of time is an incredibly important--important in terms of both 
deterrence to show our will to Russia, and real capability and 
assurance. More than that, certainly, would add, but also, you 
would have to look at the broader context of strategic 
stability. Does that actually make Russia want to do more and 
put more forces forward. So there is a balance there. And also, 
recognizing that we never had enough forces on the continent to 
win. That was not the goal of our forces, even during the 
height of the Cold War. The focus was forces there, and then 
you pull forces forward, you know, from the continental United 
States and elsewhere if you needed it.
    We shouldn't imagine that forces that are in Europe are 
going to stop any, you know, push by Russia, should they so 
choose with no warning, but we need to have enough to 
demonstrate to our allies that we are there, and to Russia that 
we are not----
    The exact numbers are always--it is an art rather than a 
science. A full maneuver division with all of the enablers that 
go along with it to land quickly and be able to maneuver 
immediately is critically important. I don't know how much more 
than that we need. I would leave that to the folks who are 
still in office.
    Mr. Larsen. Yes, sure. The reason I am asking the questions 
is in the context of this particular hearing, because I think 
all three of you have made the case that a tit-for-tat on INF 
Treaty really isn't the--wouldn't be the top option for us to 
take, that there are many other options that we ought to 
consider before we get to the point where we pull out of the 
INF, just because the Russians are not in compliance.
    Mr. Scher. And I would say the--you know, there is 
certainly a political aspect to the INF Treaty violation, 
without a doubt.
    Mr. Larsen. Yes.
    Mr. Scher. There is a real operational piece as well of 
what those missiles, if deployed at scale, could do, and what 
they hold at risk within NATO. So that is how I would argue 
that my successors in the Department of Defense need to think 
about this. So what military capability can we bring to make 
sure that those don't achieve an overwhelming balance of power 
on the Russian quickly and immediately.
    But it is a real capability, make no doubt about it. It is 
hard to find; it is hard to take out; it is hard to defend 
against; and it is immediate and quick. You don't have to do 
any movement for them to suddenly hold at risk a lot of NATO. 
We won't be able to counter all of it, but can we make it clear 
that our forces will be there, they will be affected, we will 
be part of that war immediately and that--but critically, that 
the NATO alliance will go at it together.
    Mr. Larsen. Yes. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The Chair will now 
recognize the gentleman from Florida, Mr. Mast, for 5 minutes.
    Mr. Mast. Thank you all for your testimony. I say this very 
seriously, it ranked among some of the best testimony that I 
have had the opportunity to read. I really did enjoy it. You 
know, in that, I am going to focus primarily--as much as I love 
the kinetic side of things, I am going to focus on more of the 
other side of things.
    And I want to point to you, first, Mr. Wolfsthal and some 
of your comments. I find myself just a little bit confused by 
them, and I think we can find ourselves in a good place, maybe 
by clarifying them. You made some of these comments: You know, 
in the last administration it was very clear that violations of 
arms control treaties would be confronted and have 
consequences. But in a--you know, in a different piece you 
said: Up until now, the U.S. has been reserved in its 
condemnation of Russia. And then in another place, you know, 
you said about the Russkies, that they shouldn't be allowed to 
gain a military advantage, and then went on further to say: You 
know, to this point, the Russians have been allowed to pretend 
that they are a responsible nuclear actor, and that very 
specifically--this is what interests me--we should no longer 
provide cover for that posture of them pretending to be a 
responsible actor.
    So I want to know, you know, diplomatically, what can we 
learn from the past so that we don't make that same mistake 
going forward in the next 8 years? What cover was provided to 
them that we should do that now going forward? What did they 
miss? What do we need to learn from that so they don't give us 
the political middle finger in this?
    Mr. Wolfsthal. Sure, Congressman. Thank you, and thank you 
for the thoughtful reading and response.
    Russia is a nuclear power. They have the largest nuclear 
arsenal outside of our own, and they have the ability to 
destroy the United States and any other country that they 
choose. We recognize that they have that capability. But at the 
same time, they also have been very active in working with us 
over many decades to support the cause of nonproliferation. We 
worked with them very closely for 20 years to enhance nuclear 
security. They had been active supporters in trying to deal 
with the challenge of nuclear Iran. But over the last 5 to 10 
years, we have seen a lot of that cooperation ebb. And, so, we 
still go through the motions in places like the Non-
Proliferation Treaty Review Conference, inside the United 
Nations Security Council, inside the P5 meetings of nuclear 
states on nonproliferation, and treat them as coequals. We have 
chosen not to take that fight that we have, and the very 
serious concerns, into those fora, because we don't want to do 
further damage to the nonproliferation system, because that 
matters to us, too. We care about people complying with the NPT 
and putting pressure on North Korea.
    My point was simply that we should be very clear and direct 
in those fora that Russia is not living up to its historic 
responsibility, that we in the United States are, and that 
Russia has a lot of work to do if they want to be a legitimate 
international actor in those areas.
    Mr. Mast. They do have a lot of work to do, unquestionably. 
But I really want to get to, you know, can you see any specific 
points beyond that cover that we have given them--and that is 
an important word, ``cover''--and beyond that, I would ask you 
to follow up with, do you see us having to readdress--
obviously, you know, there is going to be another nuclear 
posture review going on, but our nuclear strategy in general? 
You know, we have gone through the tide of years from mutually 
assured destruction all the way up to selective ambiguity. Do 
you see a need to readdress what is our nuclear strategy?
    Mr. Wolfsthal. Very specific point I would make, in my 
private capacity, is I think we should not engage Russia in the 
P5 on nonproliferation and nuclear security. I think that we 
should resolve back down to the P3 with us and the British and 
the French. The Chinese can be supporters in that. That, I 
think, has limited effect, but I think it is something that we 
can do and that would send a very strong message to Russia 
diplomatically.
    In terms of the Nuclear Posture Review, every President has 
the right, and I think should put their stamp on nuclear 
policy. What are nuclear weapons for? Why do we have them? When 
would we consider using them? Those are critical decisions that 
only the President of the United States can answer.
    We worked very hard to make sure that our policy was 
supportive in the Obama administration of our global 
nonproliferation efforts and our global efforts to prevent the 
use and spread of nuclear weapons. And I think in that, we were 
very effective.
    The Trump administration has, quite frankly, spoken on 
multiple sides of the issue: Let there be an arms race on the 
one hand, but it would be great if we could get rid of all 
weapons on the other hand. These are issues that I think a 
fully formed interagency needs to wrestle with, and that the 
President needs to digest and internalize before putting a 
stamp on them. But I think there is room for adjustments, both 
towards real reductions--I think we have more nuclear weapons 
than we need--but we may want to have more strategic ambiguity 
if that is the desire of the President, that is his right as 
the President.
    Mr. Mast. Thank you for your comments. I appreciate it. I 
yield back, sir.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Illinois, Mr. Schneider, for 5 minutes.
    Mr. Schneider. Thank you, Mr. Chairman.
    And I want to, as well, thank the witnesses. I will concur. 
I found the testimony very helpful, and I appreciate you 
sharing your experiences with us.
    As I read through the testimony last night, as I have 
listened this afternoon, one of the common threads that seem to 
run through all of your testimony is this emphasis on 
maintaining unity, maintaining unity with our allies.
    And I would like to discuss in the little bit of time that 
we have, both short and long term. I will start with the short 
term. In the short term, if each of you could expand, on what 
opportunities are there that you would highlight for the 
administration and for Congress? What are some of the cautions 
you would give us? And the key priorities we should focus on 
short term?
    And, Mr. Rose, we will start with you.
    Mr. Rose. With regard to the allies?
    Mr. Schneider. Yes.
    Mr. Rose. With regard to the allies, number one, I would 
focus on implementing----
    Mr. Rogers. Your microphone needs to be turned on.
    Mr. Rose. Sorry. Sorry, sir.
    With regard to the allies, number one has to be 
implementing the recommendations of the Warsaw Summit, both on 
the conventional side of the house but also on the nuclear side 
of the house.
    Number two, improving their strike capabilities, in a 
conventional area, specifically JASSM-ER as well as Tomahawk. 
And, three--and this is something that is bipartisan--we need 
to continue to push our allies to spend more on defense. This 
is--you know, it is not just the Trump administration who has 
been pushing this pressure on the allies, but it has also been 
the three or four previous administrations. So those would be 
my key recommendations. But you are right, sir, alliance unity 
is key, and the Russians are trying to undermine alliance 
unity.
    Mr. Schneider. Thank you. Mr. Scher.
    Mr. Scher. I think Frank is showing his Department of 
Defense roots. He has, I think, ably put forward some of the 
key elements. Following up on the commitments is always 
critical, continued spending. But I also think we need to--
frankly, they need a sense of predictability, right? We need to 
both be able to tell them they need to do more, while 
simultaneously ensuring that they know that we will be there. 
That it is in our interests, not anybody else's, for us to be a 
part of the NATO alliance, and that we are better off because 
more things--we get to fight away games. We get to be out into 
other places. That is directly and foremost in our interests. 
Maintaining that alliance is critical. They should never--we 
should never lose fact--lose sight of that. They should not 
lose sight of the fact they benefit by being in the alliance 
just as much as we do.
    I think with--you know, because those are the facts of the 
case, in my opinion, it should be easy to push forward with 
alliance management if we can do it deftly and make sure that 
they both spend more, continue to move forward on the Warsaw 
commitments, but also realize that the world is changing around 
them.
    Mr. Schneider. Mr. Wolfsthal.
    Mr. Wolfsthal. I would say in the near term, we need to 
understand that tone and form matter, that we need to be 
prioritizing the schedule of the NATO Summit; we need to be 
prioritizing the visits by the Secretary of State, Secretary of 
Defense, Members of Congress, the House, the Senate. We need to 
show that this is the most important military alliance on the 
face of the planet, and has preserved the peace for two 
generations plus, and talking about NATO as an integral part of 
our defense strategy is part of that. And I don't mean that to 
be a partisan comment. I think you can put pressure on NATO for 
spending. You can put pressure on them to take their defense 
requirements more seriously, but in the end, we have to talk as 
a responsible international leader, because that is what the 
United States is.
    Mr. Schneider. Great. Thank you.
    In the minute left, I know it is not fair to put you on the 
spot like this, but Mr. Rose, you used the term ``strategic 
stability discussions.'' In the context of where we are today, 
what is happening--we talked about the State Department 
earlier--to what extent have our strategic stability 
considerations changed, and how do we effectively communicate 
those, both to people in the State Department, but to the 
outside world as well?
    Mr. Rose. Sir, what I would say is this: We need to 
reestablish a forum to talk with the Russians on strategic 
stability issues. That doesn't mean moving forward with a new 
negotiation, but we don't have that mechanism. We tried at--the 
last couple of months of the Obama administration to 
reestablish that mechanism; the Russians decided not to move 
forward. However, I strongly encouraged the new administration 
to begin a very serious discussion with Russia about strategic 
stability.
    And, furthermore, that relationship over the last 25 years 
has been based on further strategic reductions. I think we may 
be in a different place. I am not necessarily convinced that 
the Russians are interested in further strategic reductions; 
however, I think it is in our mutual interests to maintain 
stability, and we should take actions to encourage that.
    Mr. Schneider. Thank you. Obviously, an issue that needs 
more than 5 minutes, but I very much appreciate your input. And 
I yield back.
    Mr. Rogers. I thank the gentleman. Chair now recognizes the 
gentleman from California, Mr. Rohrabacher, for 5 minutes.
    Mr. Rohrabacher. Thank you very much.
    Does the INF Treaty--it covers, basically, intermediate-
range and cruise missiles? Is that what we are talking about? 
Okay.
    Let me just say that some of the premises of this 
discussion has been one that is disturbing to me. And let me 
just ask: Is it your premise that if there was a nuclear 
exchange, we should be preparing for a situation where we could 
come out of a nuclear exchange with some warfighting 
capabilities left? I mean, when you are talking about we need 
to defend, with missile defense, some particular storage or 
some capabilities, if there is ever a nuclear exchange. Do you 
believe that we could have a limited nuclear exchange with the 
Russians?
    Mr. Rose. Sir, no. Why I am such a supporter of the 
modernization is we want to deter that from happening. And the 
best way to deter a nuclear exchange is to have capable U.S. 
nuclear forces.
    Mr. Rohrabacher. Well, certainly. But anything but capable 
nuclear forces that are after an exchange, I will have to say 
that if there--do we believe that if Russia actually invades 
Western Europe that they--that that would happen without a 
nuclear exchange? That we would not, then, move forward? That 
there wouldn't be rockets going off? That they would take the 
chance of just going in and allowing us a first strike? That is 
a--anyway, is that--it makes no sense, when I am listening to 
you, talk about these things.
    Quite frankly, we--as you are aware, we have enough weapons 
to destroy them instantaneously.
    Do we believe that the Russians have a plan to invade 
Western Europe?
    Mr. Scher. So I won't touch on whether--on the intel 
perspective. The key from the Department of Defense is we need 
to plan as if they would, and as if they do. And planning to do 
that----
    Mr. Rohrabacher. Is part of our plan that they can invade, 
and we wouldn't have a nuclear exchange?
    Mr. Scher. We would love--yes, absolutely. If they do not 
use nuclear weapons, I would argue that we have sufficient----
    Mr. Rohrabacher. You actually--any sane person who thinks 
that there would be a massive invasion of Western Europe, and 
there wouldn't be a nuclear exchange is living in la-la land.
    Let me ask you this: When you say about--when we have--
okay. Are sea-based and air-based nuclear weapons, you know, 
the cruise and intermediate-range weapons, are they covered in 
the INF Treaty?
    Mr. Rose. No, sir. The INF Treaty only deals with ground-
based capabilities.
    Mr. Rohrabacher. Right. Okay. So when we have maneuvers, 
which we have had in Estonia, when we put--by the way, when we 
put our--have our maneuvers right on their border, and we are 
not expecting them--that to have an impact on their view of the 
world, when we do that, if we have B-52 bombers flying from 
England as part of the maneuvers that we have had in the 
Balkans, is the B-52 bomber capable of carrying these cruise 
missiles, and these intermediate-type range nuclear weapons?
    Mr. Scher. Yes.
    Mr. Rohrabacher. Yes. We have ships that have also been 
part of these maneuvers in the Balkans--excuse me, the Baltics. 
Are the ships that we send there, are they capable of carrying 
these nuclear weapons?
    Mr. Rose. Well, sir, my understanding--and I will defer to 
Bob--is that we made a decision in the early 1990s to remove 
nuclear-tip cruise missiles from our surface ships, but we do 
maintain the ability, and deploy conventionally armed 
Tomahawks.
    Mr. Rohrabacher. The answer is, yes, they are capable of 
this?
    Mr. Scher. No, sir.
    Mr. Rohrabacher. We have--and we are complaining about the 
Russians and their intent with developing some weapons that are 
now in their country, but now we are sitting engaged in sending 
to their border--to their border, weapons systems that can 
deliver these very same nuclear weapons.
    Mr. Scher. And they are doing the same to us. In fact, I 
would argue that their exercises on their border with NATO 
allies are even more provocative.
    Mr. Rohrabacher. They are doing it to us. They are doing it 
in their country. We are not in our country. We are--they are 
doing it--you know, we had--I just had a hearing a couple of 
weeks ago on the Baltics. And, no, I personally don't buy that 
when Russia has maneuvers inside their own country versus us 
having maneuvers on their border is the same. No. When they 
have maneuvers in their country, just like we have maneuvers in 
our country, it is not something that, in some way, we should 
look at as a hostile act. They might even be a defensive act, 
perhaps us flying our B-52 bombers right at them, and then 
turning around at the last minute, or our stationing ships that 
deliver nuclear weapons, perhaps that--and perhaps sending more 
armored units right up to their border in the Baltics, perhaps 
that is the reason they have those maneuvers.
    Mr. Rogers. The gentleman's time has expired. Mr. Scher, 
you were wanting to make a response.
    Mr. Rohrabacher. Yes, please.
    Mr. Rogers. I would like to hear your response.
    Mr. Scher. First of all, just to be clear, despite the fact 
that surface ships could theoretically retain the capability to 
launch nuclear weapons, they currently do not have them on, 
that can't always be the case, necessarily, but we do not have 
that capability, period, full stop. Secondly----
    Mr. Rogers. Go ahead. I want to hear your statement.
    Mr. Rohrabacher. You are here. That is right.
    Mr. Scher. We all--we all have--you know, everyone gets to 
see the exercises going on in different perspectives. I would 
argue that a Russian exercise on its border out of its garrison 
that is oriented towards NATO allies is something that we need, 
as an alliance, to understand and respond to. It is certainly a 
potentially vicious cycle, and wonders--you know, but I would 
argue that we, in the alliance, have done nothing to make it 
clear that we--we have done nothing that says we are looking to 
invade Russia. Russia has done all of--many things that make it 
very uncomfortable, and we are there to protect the alliance 
and make it clear that our commitment to our allies is as 
steadfast as it always has been, and that an invasion of, an 
attack on, any ally is the same as if it were on the United 
States per our treaty commitment.
    Mr. Rogers. I want to thank all the witnesses. Your 
testimony has been very enlightening and helpful to these 
committees.
    And with that, we are adjourned.
    [Whereupon, at 12:10 p.m., the subcommittees were 
adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 30, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 30, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 30, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 30, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Please discuss your views on the risks of the treaty 
currently being negotiated to ban nuclear weapons. Is it inconsistent 
for a NATO member who just signed on to the Warsaw Communique to now 
sign on to this treaty? What about non-NATO members who rely on our 
nuclear umbrella?
    Mr. Rose. I oppose the current efforts to negotiate a nuclear 
weapon ban treaty. Such a treaty would be fundamentally at odds with 
long-standing U.S. and Alliance defense and deterrence policies. A key 
objective of the proponents of the treaty is to undermine U.S. extended 
deterrence. I urge the United States and its allies not to participate 
in the negotiations, and not become parties to the treaty if one is 
negotiated.
    Mr. Rogers. Why does Russia's violation matter? Is this something 
that has to be confronted? Why?
    Mr. Rose. The INF Treaty has served the security interests of the 
United States and its allies in Europe and Asia for almost thirty 
years. The Treaty is not just a bilateral arms control treaty between 
the United States and Russia, but goes to the heart of Eurasian 
security. However, it is clear that Russia no longer sees the INF 
Treaty as in its interest and is unlikely to return to compliance. 
Therefore, a strong--but proportional--political and military response 
is required by the United States and its Allies to effectively address 
Russia's violation. I would recommend that the United States and its 
Allies should impose a ``countervailing strategy'' that seeks to 
enhance deterrence by holding critical Russian assets at risk. That 
response should also include ``limited'' cruise missile defenses that 
would deny Russia significant military benefit from the deployment of 
the new cruise missile. These response options should be implemented in 
a way that maintains Alliance unity and places the blame for the demise 
of the INF Treaty squarely where it belongs: with Russia.
    Mr. Rogers. How long was the INF violation teed up in the 
interagency before the policy decision was made to call Russia's 
conduct a violation?
    Mr. Rose. I was not directly responsible for this issue at the 
State Department until I became assistant secretary in December 2014, 
after Russia was declared in violation of the INF Treaty.
    Mr. Rogers. Do you believe Russia will return to compliance with 
INF? Do you think we could effectively verify a return to compliance? 
How? Please be specific.
    Mr. Rose. I believe that it is unlikely that Russia will return to 
compliance with its obligations under the INF Treaty for a variety of 
reasons, which I outlined in my written statement. That said, if Russia 
were to a make a decision to return to compliance with the treaty, I do 
believe it could be done in a verifiable manner. This would likely 
require resuscitating the INF Treaty verification protocols, which 
expired in 2002, or similar measures.
    Mr. Rogers. Is it possible to take certain steps to convince them 
to return to compliance? How? By doing what?
    Mr. Rose. Again, I believe it is extremely unlikely that Russia 
will return to compliance with its obligations under the INF Treaty for 
a variety of reasons, which I outlined in my written statement.
    Mr. Rogers. Then Principal Deputy Under Secretary of Defense Brian 
McKeon testified on two occasions that DOD was going to recommend three 
categories of military response options to convince Russia to return to 
compliance with the treaty. These included active defenses, and 
counter-force and countervailing military capabilities. What are some 
examples of these kinds of capabilities? Did they ever get developed?
    Mr. Rose. I would defer to my colleague Robert Scher who was 
actively involved in the development of these options when he served as 
assistant secretary of defense for strategy and capabilities. That 
said, many of the response options that I recommended in my written 
testimony are consistent with the military options that Under Secretary 
McKeon noted in his.
    Mr. Rogers. If the Russians were developing more than one system 
that violated the treaty, what would that mean for their intent to 
return to compliance? How would such a fact influence how the U.S. 
should proceed on developing its own capabilities?
    Mr. Rose. I cannot confirm whether or not Russia is developing 
additional systems that violate the INF Treaty. However, if they were 
developing additional systems, it would only strengthen my view that 
Russia is unlikely to return to compliance. Therefore, I recommend 
moving forward with the military response options that I outlined in my 
written testimony, in particular developing a conventional variant of 
the Long-range Standoff (LRSO) cruise missile, and facilitating the 
sale of air- and sea-launched cruise missile capabilities (e.g., JSSM-
ER and Tomahawk) to allies.
    Mr. Rogers. Are you familiar with the recommendations to confront 
Russia's violation made by then Chairman of the Joint Chiefs of Staff 
General Martin Dempsey? Did you support them? How many of these 
recommendations were implemented by the administration? If none, why?
    Mr. Rose. I am familiar with those recommendations, but was not the 
assistant secretary of state at the time they were made.
    Mr. Rogers. Would you support R&D, as distinct from flight test or 
acquisition, of the long-range stand-off weapon (also known as LRSO) in 
a ground- or sea-launched option? Would such R&D violate the INF 
Treaty?
    Mr. Rose. I support the development of air- and sea-based variants 
of the LRSO. While R&D of the ground-based variant of the LRSO would 
not violate the INF Treaty, I would not recommend the development of a 
ground-based version of the LRSO at this time. Such a move could 
generate strong political opposition among some NATO allies, as we saw 
in the early 1980s, and provide an opening for Russian wedge-driving. 
U.S. and Allied military requirements can be met with air- and sea-
launched cruise missiles, with less risk of political controversy.
    Mr. Rogers. It occurs to me that testing a sea-launched Tomahawk 
cruise missile, of which we have several thousand missiles in 
inventory, on a fixed-test stand would not violate the treaty. Am I 
right? What if we then demonstrated the ability to mate it to a mobile 
ground launcher, but didn't flight test it? Would that violate the 
treaty? Would these actions send the Russians a powerful message?
    Mr. Rose. It is my understanding that testing a sea-launched cruise 
missile on a fixed-test stand would not violate the INF Treaty. While 
demonstrating the ability to mate a Tomahawk on a mobile ground 
launcher and not testing might not be a ``violation'' of the treaty, it 
would be inconsistent with the ``spirit'' of treaty and could raise 
political concerns among allies. Furthermore, I'm not convinced that it 
would have much of an impact on Russian thinking. I believe that U.S. 
and Allied military requirements can be met with air- and sea-launched 
cruise missiles, with less risk of political controversy. Therefore, I 
recommend moving forward with the military response options that I 
outlined in my written testimony, in particular developing a 
conventional variant of the Long-range Standoff (LRSO) cruise missile, 
and facilitating the sale of air- and sea-launched cruise missile 
capabilities (e.g., JSSM-ER and Tomahawk) to allies.
    Mr. Rogers. Isn't it a false narrative that developing ground-
launched cruise or ballistic missiles at an intermediate range means 
we're redeploying nuclear-armed Pershing IIs in Germany or the U.K.? 
Isn't this a false narrative spun by Russia and their allies?
    Mr. Rose. It is my understanding that the United States currently 
has no plans to develop, or deploy, intermediate-range ground-launched 
cruise or ballistic missiles, nuclear or conventional, to Europe.
    Mr. Rogers. Do you have any doubt that Russia is violating the 
treaty? Why then do some allies not agree with the U.S. position? Is it 
a political choice or are they really not convinced?
    Mr. Rose. I have no doubt that Russia has violated the INF Treaty. 
However, during my tenure as assistant secretary of state, I had access 
to significant intelligence information related to the issue. Allies 
have not had access to the same level of information. Therefore, I 
would strongly encourage the U.S. Government to make additional 
intelligence information on the subject available to allies.
    Mr. Rogers. I gave you a copy at the hearing of the Chairman of the 
Joint Chiefs of Staff's report from 2013 that lists at least four 
validated military requirements that call for the U.S. to use military 
capabilities prohibited by INF. It appears to be the case that our 
adherence to this treaty has a very real price for the U.S. and our 
military forces, in that we cannot meet these validated military 
requirements. Do you agree? How might such capabilities be useful in 
countering A2/AD in Asia?
    Mr. Rose. I believe that the United States can meet its current 
military requirements without deploying INF Treaty-prohibited systems. 
However, as I noted in my written testimony, I am not necessarily 
opposed to the development of such a capability in the future if: 1) 
Russia fails to return to compliance with the INF Treaty; and 2) and 
the United States requires such a capability to meet its military 
requirements. However, I remain concerned about where we would deploy 
such a system if it were eventually developed. History has shown that 
deployments of ground-based missile systems remain politically 
controversial in democratic countries. For example, the deployment of 
U.S. INF-range ballistic and cruise missiles in Europe in the 1980s was 
highly controversial. Furthermore, the recent deployment of a Terminal 
High Altitude Area Defense (THAAD) missile defense system to the 
Republic of Korea (ROK), though strictly a defensive system, has proven 
to be controversial both within the ROK, and in the region.
    Mr. Rogers. What are some of the factors the U.S. should consider 
prior to the extension of the New START treaty, which isn't required 
until 2021?
    Mr. Rose. A U.S. decision to extend the New START Treaty should be 
based two overarching factors. First, is extension of the treaty is in 
the national security interest of the United States and its allies? 
Second, is Russia is in full compliance with its obligations under the 
treaty?
    Mr. Rogers. Please discuss your views on the risks of the treaty 
currently being negotiated to ban nuclear weapons. Is it inconsistent 
for a NATO member who just signed on to the Warsaw Communique to now 
sign on to this treaty? What about non-NATO members who rely on our 
nuclear umbrella?
    Mr. Scher. The discussions underway to ban nuclear weapons are not 
in our interests or in the interests of our allies. Any ally who 
believes in the security assurances of the United States and NATO 
should not participate in the nuclear weapons ban negotiations, nor 
consider signing any such treaty. These discussions have set a 
dangerous course that if realized would destabilize NATO and undermine 
global security. While there are some who will state that this treaty 
is just aspirational, consideration of a nuclear ban runs counter to 
how the United States and its allies should think about the deterrent 
value of nuclear weapons and how we seek to deter nuclear war. As such, 
signing on to the treaty would be in direct conflict with Alliance 
statements in the Warsaw Communique and elsewhere and would severely 
damage the Alliance and the extended deterrence commitments of the 
United States in Europe and East Asia.
    Mr. Rogers. Why does Russia's violation matter? Is this something 
that has to be confronted? Why?
    Mr. Scher. Russia's violation of the INF treaty is dangerous from 
an operational and political perspective. It also undermines the 
relevance of treaties and arms control treaties beyond the INF treaty.
    From an operational perspective, the intermediate-range missiles 
that Russia is building provide Russia with another capability to hold 
NATO forces and territory at risk. While we can address the threat from 
these missiles in different ways, their presence forces us to pursue 
costly defenses and additional offensive strike capabilities for the 
defense of NATO.
    On the political side, the continued violation falls into a pattern 
of Russian actions that threatens its neighbors, weakens strategic 
stability, and defies international norms. Russia's behavior also has a 
direct impact on the validity and purpose of international agreements. 
If there is no reaction to their violation of the treaty, the entire 
system of arms control is weakened and calls into question 
international agreements globally.
    Mr. Rogers. How long was the INF violation teed up in the 
interagency before the policy decision was made to call Russia's 
conduct a violation?
    Mr. Scher. I took up my position overseeing these issues within the 
Office of the Secretary of Defense after the State Department 
officially announced that Russia was violating the INF treaty in July 
2014. Hence, I do not know how long the interagency community was 
examining the evidence before making that formal declaration.
    Mr. Rogers. Do you believe Russia will return to compliance with 
INF? Do you think we could effectively verify a return to compliance? 
How? Please be specific.
    Mr. Scher. I do not believe that Russia will return to compliance 
with the INF treaty. However, it continues to be in the best interest 
of the United States to try to convince Russia to return, even as we do 
more to counter the operational and political threat from the 
deployment of the violating system for reasons noted in my testimony.
    I am not an expert on verification, but I do know from many 
discussions that verification would be very difficult and likely 
require an expansive and intrusive regime that Russia would be unlikely 
to accede to. However, if for some reason Russia were to claim to want 
to come back into compliance, this kind of intrusive compliance regime 
should be a part of any deal that the United States would accept.
    Mr. Rogers. Is it possible to take certain steps to convince them 
to return to compliance? How? By doing what?
    Mr. Scher. As noted, I believe it unlikely that the Russians will 
agree to come back into compliance with the INF treaty. The only way to 
get Russia to consider compliance is by convincing Russian leaders that 
fielding the violating system will ultimately be costlier operationally 
and politically than returning to the treaty and that will require the 
coordinated military and political approach of the United States and 
the NATO alliance. For example, on the military side of the equation, 
Russia would need to see that because of the violation, the balance of 
forces between it and NATO had shifted and that the Alliance had become 
increasingly unified and militarily potent.
    Mr. Rogers. Then Principal Deputy Under Secretary of Defense Brian 
McKeon testified on two occasions that DOD was going to recommend three 
categories of military response options to convince Russia to return to 
compliance with the treaty. These included active defenses, and 
counter-force and countervailing military capabilities. What are some 
examples of these kinds of capabilities? Did they ever get developed?
    Mr. Scher. Active defenses would include some point-missile defense 
systems we currently have in inventory such as the Patriot systems and 
some additional systems we have or could develop to target cruise 
missiles. Counter-force and countervailing capabilities are strike 
capabilities we have across the armed forces that would either directly 
target the violating systems or target other critical capabilities in 
Russia. The U.S. military currently has many such systems, but is 
always looking to improve its strike capabilities.
    Mr. Rogers. If the Russians were developing more than one system 
that violated the treaty, what would that mean for their intent to 
return to compliance? How would such a fact influence how the U.S. 
should proceed on developing its own capabilities?
    Mr. Scher. I believe that the Russians do not intend to return to 
the treaty now, but certainly the development of any additional, 
violating systems would make me even more certain about that fact. 
However, an additional system on their side does not change my calculus 
about the United States developing its own intermediate-range cruise 
missile. That should be done when and if the Administration, in 
coordination with Congress, believes 1) that this type of capability is 
needed for offensive purposes, 2) is a better investment than other 
strike capabilities, 3) increases strategic stability.
    Mr. Rogers. Are you familiar with the recommendations to confront 
Russia's violation made by then Chairman of the Joint Chiefs of Staff 
General Martin Dempsey? Did you support them? How many of these 
recommendations were implemented by the administration? If none, why?
    Mr. Scher. I am generally familiar with the recommendations made by 
then Chairman Dempsey and support them as credible options that were 
rightfully presented to the President for his decision. I believe that 
very few were implemented by the Obama Administration but do not know 
what has happened since. In some cases, the recommendations were 
assessed to not be operationally necessary at the time and would, in 
fact, reduce strategic stability and run counter to the efforts being 
undertaken to try to convince Russia to return to compliance with the 
Treaty.
    Mr. Rogers. Would you support R&D, as distinct from flight test or 
acquisition, of the long-range stand-off weapon (also known as LRSO) in 
a ground- or sea-launched option? Would such R&D violate the INF 
Treaty?
    Mr. Scher. As I understand it, R&D for a ground-launched variation 
of the LRSO could be done in a way that does not violate the INF 
treaty--although that ultimately is a determination made by treaty 
lawyers at the Department of State. Assuming that my initial 
understanding is true, I would support such R&D at this time.
    Mr. Rogers. It occurs to me that testing a sea-launched Tomahawk 
cruise missile, of which we have several thousand missiles in 
inventory, on a fixed-test stand would not violate the treaty. Am I 
right? What if we then demonstrated the ability to mate it to a mobile 
ground launcher, but didn't flight test it? Would that violate the 
treaty? Would these actions send the Russians a powerful message?
    Mr. Scher. I believe that the actions you describe would send a 
clear message to the Russians that they would view as a direct 
consequence of their violation of the Treaty. I am not a lawyer and 
cannot formally comment on whether or not that would be a violation of 
the treaty, although based on what has been briefed to me, it would not 
seem to be a violation.
    Mr. Rogers. Isn't it a false narrative that developing ground-
launched cruise or ballistic missiles at an intermediate range means 
we're redeploying nuclear-armed Pershing IIs in Germany or the U.K.? 
Isn't this a false narrative spun by Russia and their allies?
    Mr. Scher. Yes, it is not true that simply developing ground-
launched cruise missiles or ballistic missiles at an intermediate range 
means that it is inevitable that these capabilities would be redeployed 
into Europe or that they would be nuclear armed. In fact, any such new 
capability would have applications globally and could more easily be 
conventionally armed.
    Mr. Rogers. Do you have any doubt that Russia is violating the 
treaty? Why then do some allies not agree with the U.S. position? Is it 
a political choice or are they really not convinced?
    Mr. Scher. I do not have any doubt that Russia is violating the 
treaty. I cannot speak for other nations about why they have not made 
the same statements. It is, however, critical that the United States 
continue to share as much intelligence as possible to make it 
abundantly clear that Russia is in violation of the INF Treaty, and I 
believe as Russia continues to deploy these systems, that will become 
an easier task.
    Mr. Rogers. I gave you a copy at the hearing of the Chairman of the 
Joint Chiefs of Staff's report from 2013 that lists at least four 
validated military requirements that call for the U.S. to use military 
capabilities prohibited by INF. It appears to be the case that our 
adherence to this treaty has a very real price for the U.S. and our 
military forces, in that we cannot meet these validated military 
requirements. Do you agree? How might such capabilities be useful in 
countering A2/AD in Asia?
    Mr. Scher. If the United States made the determination to withdraw 
from the INF treaty, there would be capabilities militarily useful for 
our forces that DOD could then develop. However, I do not believe that 
simply because these systems would be militarily useful or that they 
fill validated requirements necessarily means that they are the only, 
or even the best way, to address those requirements. Hence, pursuing 
any such capabilities would have to be done with an overall look at 
what options are available to meet the military requirements in a way 
that best reinforces strategic stability and supports U.S. interests.
    The value of intermediate range systems in Asia would be our 
ability to locate them within the range of many systems China installed 
and developed to keep some U.S. systems out of range of Chinese forces. 
While this could have some operational advantages, it would also 
present more fixed targets to any adversary. Beyond this reality, we 
also have other systems that can penetrate and/or survive in the 
Pacific.
    Mr. Rogers. What are some of the factors the U.S. should consider 
prior to the extension of the New START treaty, which isn't required 
until 2021?
    Mr. Scher. I believe that the New START treaty, if implemented as 
agreed to, remains in U.S. interests and that extending New START makes 
sense. However, given recent Russian actions in regards to the INF 
treaty and its other aggressive actions, extending it early should only 
be done if we have confidence that it would be implemented in 
accordance with U.S. views of the treaty.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Should the United States withdraw from the INF Treaty 
or the New START Treaty? Why/why not?
    Mr. Rose. I believe that continued implementation of the New START 
Treaty is in the national security interests of the United States for 
several reasons. First, it places limitations on the number of 
strategic nuclear systems that Russia can deploy against the United 
States and our allies. Second, through New START's on-site inspection 
regime, data declarations, and notifications, the Treaty provides the 
United States with key insights into Russian strategic nuclear forces 
that we might not have access to without the Treaty. Third, according 
to the U.S. Department of State's Annual Report on Implementation of 
the New START Treaty, Russia is adhering to its obligations under the 
Treaty. Indeed, the Reagan Administration had serious concerns about 
the Soviet Union's compliance with the Anti-Ballistic Missile (ABM) 
Treaty, as result of its building of the Krasnoyarsk ballistic missile 
early warning radar. However, these concerns did not prevent the United 
States from negotiating and ratifying the INF Treaty in 1988, because 
despite concerns about Soviet compliance with the ABM Treaty, it was 
felt that the INF Treaty was in the national security interest of the 
United States. In my view, the same holds true for the New START Treaty 
today.
    Mr. Cooper. Should the United States and NATO countries pursue 
cruise missile defense to counter the Russian INF violations? Why/why 
not?
    Mr. Rose. Russia is deploying the new GLCM as part of its overall 
A2AD strategy to deny the United States and its NATO Allies access to 
critical ports, airfields, and command and control nodes during a 
potential conflict. In response, the United States and NATO should 
deploy ``limited'' cruise missile defenses to protect key Alliance 
assets in the event of a conflict with Russia. While I support the 
deployment of ``limited'' cruise missile defenses, I would caution 
against moving forward with the deployment of larger set of missile 
defenses aimed against Russia, especially against its strategic 
deterrent. Such an approach would be extremely expensive, 
technologically challenging, and could undermine strategic stability.
    Mr. Cooper. Why did Russia develop and deploy the SSC-8 in 
violation of the INF Treaty? In addition to responding strongly to 
Russian violation, should we address Russian alleged concerns, and if 
so, how?
    Mr. Rose. In my view, Russia developed and deployed the SSC-8 in 
violation of the INF Treaty for a variety of political and military 
reasons, which I outlined in my written testimony. From 2013 to 2016, 
the United States attempted--unsuccessfully--to resolve Russia's 
noncompliance with the INF Treaty through diplomatic efforts. During 
those discussions, the United States directly addressed each of 
Russia's alleged concerns about U.S. compliance with the INF Treaty. 
Based on this history, I believe it is unlikely that Russia will return 
to compliance with the treaty.
    Mr. Cooper. This is currently prohibited by law per a congressional 
mandate in the national defense authorization, but should we have a 
channel that allows military-military dialogue with Russia to discuss 
strategic stability issue, particularly in a crisis? Why/why not?
    Mr. Rose. I believe that is in the mutual interest of United States 
and Russia to initiate strategic stability talks to help prevent 
misperceptions and miscalculations.
    Mr. Cooper. Should the United States withdraw from the INF Treaty 
or the New START Treaty? Why/why not?
    Mr. Scher. The United States should not withdraw from the INF 
treaty right now. It continues to be in the best interest of the United 
States and our Allies to do everything we can to bring Russia back into 
compliance, even if we eventually fail. However, I do believe that 
there is a range of actions that the United States should take within 
the bounds of the treaty to improve our operational position and make 
it more likely that Russia might see it in their interest to return to 
compliance.
    I believe that the New START treaty remains in our interests given 
that it reduces the number of deployed nuclear weapons and established 
a solid verification regime, especially as Russia continues to 
implement that treaty.
    Mr. Cooper. Why did Russia develop and deploy the SSC-8 in 
violation of the INF Treaty? In addition to responding strongly to 
Russian violation, should we address Russian alleged concerns, and if 
so, how?
    Mr. Scher. I cannot speak to why Russia violated the INF treaty, 
nor do I believe that they had any reason to do so. As they have not 
admitted to deploying this system, I have also not seen any publicly 
stated rationale for why they have developed the violating system. 
Russia certainly talks about how it is threatened by NATO, but given 
what has transpired over the past few years, Russia has been the 
aggressor on its periphery, not the Alliance.
    Mr. Cooper. Does the Russian deployment of this missile threaten 
the U.S. ability to defend the United States and our European allies? 
Does it threaten our nuclear deterrence capability?
    Mr. Scher. At this point, I do not believe that this missile 
threatens the ability of the United States to defend ourselves and our 
Allies, and it does not significantly threaten our nuclear deterrence 
capabilities overall. However, the violation is not just a political 
statement; it is a real military capability. This system, especially if 
deployed in greater numbers, would have a measurable effect on the 
strike capability of Russia and would directly threaten NATO forces and 
territory, including possibly part of the air leg of the nuclear triad. 
Threatening our air leg would force the United States and NATO allies 
to spend more money on protection of the Alliance and more money on 
systems that could strike Russia in order to maintain the level of 
security we currently enjoy.
    Mr. Cooper. This is currently prohibited by law per a congressional 
mandate in the national defense authorization, but should we have a 
channel that allows military-military dialogue with Russia to discuss 
strategic stability issue, particularly in a crisis? Why/why not?
    Mr. Scher. I believe that there is often a benefit to talking with 
other nations. Whether or not a military-to-military channel is the 
right approach depends on the particulars of the case. Given that 
strategic stability is much more than just a military concern, I am not 
convinced that such military talks between the United States and Russia 
would be the best approach. However, I do believe that there is value 
in retaining this channel as an option and not have it be specifically 
restricted by law as it could be helpful to those seeking to find the 
best way to enhance strategic stability. And, yes, it would be 
particularly useful to have open channels of communication in the event 
of a crisis.
    Mr. Cooper. Should the United States withdraw from the INF Treaty 
or the New START Treaty? Why/why not?
    Mr. Wolfsthal. The United States has a vested interest New START's 
continued full implementation and the United States should not withdraw 
from New START. New START provides critical insights into Russian 
nuclear developments and also provides the only constraint on Russia 
nuclear modernization. It provides a critical element in an otherwise 
destabilized relationship with Russia and should be preserved as long 
as Russia continues to comply with its terms. It should be extended for 
five years if the Executive Branch and U.S. military believe that we 
can achieve our goals of deterrence and reassurance under the mutual 
constraints adopted under the agreement. I do not believe the United 
States should withdraw from the INF agreement unless the U.S. military 
determines that we have to develop and deploy a system denied to us by 
the terms of the agreement. Even then, it would be preferable for us to 
pursue such a program as a counter-measure under the INF given Russia's 
violations of the agreement. U.S. withdrawal from the INF is a favor to 
Russia and would enable Russia to claim we, not they, are responsible 
for the demise of the agreement.
    Mr. Cooper. Should the United States and NATO countries pursue 
cruise missile defense to counter the Russian INF violations? Why/why 
not?
    Mr. Wolfsthal. The missile defense options within our technical and 
military capability will make no significant impact on Russian or 
European military thinking, deterrence or reassurance. Moreover, the 
decision to deploy missile defenses in Europe was made to protect NATO 
allies from Iranian missile capabilities. Russia remains convinced that 
this is cover for American ambitions to direct missile defenses against 
Russia to deny it a retaliatory capability to deter American military 
actions. As such, any decision to direct the European Phased Adaptive 
Approach to missile defense against Russia has significant political 
and diplomatic implications. If there is no significant military gain 
and directing missile defense against Russia adds to the damaging 
political narrative in Europe that the united States is undermining 
strategic stability in Europe, then such steps should be approached 
cautiously. I do not believe at this time that EPAA should be 
redirected against cruise missiles and even if it is, it is unlikely to 
have any significant military capability.
    Mr. Cooper. Why did Russia develop and deploy the SSC-8 in 
violation of the INF Treaty? In addition to responding strongly to 
Russian violation, should we address Russian alleged concerns, and if 
so, how?
    Mr. Wolfsthal. Russian actions suggest that they are seriously 
concerned about the expansion of NATO and the growing ability of the 
United States to hold at risk strategic assets in Russia without 
resorting to use of nuclear weapons. Russian military doctrine now 
reserves the right to escalate to the use of nuclear weapons if it is 
facing a conventional military defeat with strategic implications, and 
their strong pursuit of precision strike conventional and nuclear 
capabilities on land, air and sea are consistent with this effort. 
While I have no doubt that Russia is in full violation of the INF 
Treaty, Russian thinking on the issue is unclear. Some officials in 
Russia may not be aware that the testing and development of such 
missiles is prohibited. However, if media reports of actual deployments 
are accurate, any such distinction is mute. Russia is in violation of 
the INF Treaty. I do believe that it is worth the effort to seek to 
preserve the INF Treaty and to bring Russia back into compliance. If a 
dialogue at a high enough level could be initiated, there is a chance 
that Russia would agree--in exchange for certain American actions or 
inaction--to reverse course and come back into compliance with the INF 
Treaty. Moreover, making such an effort would steady the resolve of 
NATO allies and should Russia refuse to come back into compliance, make 
a strong NATO response easier to achieve.
    Mr. Cooper. Are there non-military responses that have yet to be 
used to respond to this violation? Which ones would you recommend?
    Mr. Wolfsthal. I am a strong advocate for naming and shaming Russia 
actions. I believe that we should declassify a large majority of the 
information that confirms Russia's violations with our allies and to 
call Russia out in multiple international and legal form for their 
actions. Russia takes great pride in being a depository state for the 
nuclear nonproliferation Treaty and for being a responsible nuclear 
superpower. Making clear that their actions are no longer responsible 
and are a major detriment to international peace and security is one 
way to create pressure on Russia to return to compliance and avoid such 
destabilizing actions.
    Mr. Cooper. This is currently prohibited by law per a congressional 
mandate in the national defense authorization, but should we have a 
channel that allows military-military dialogue with Russia to discuss 
strategic stability issue, particularly in a crisis? Why/why not?
    Mr. Wolfsthal. The lack of a strategic stability dialogue with 
Russia is a major concern and adds to the danger that an accident or 
conflict could escalate out-ofcontrol. Russian high-level officials or 
convince the United States is seeking to undermine the current 
political leadership control of the country and to deny Russia what it 
sees as it's rightful place in European global affairs. This paranoia 
can only be addressed through direct and sustained dialogue including 
national leadership and high-level military officials. This is in no 
way a reward for Russian actions but a necessary step to manage the 
strategic competition that is growing between two nuclear superpowers.
    Mr. Cooper. Russia was also in violation of the Anti-Ballistic 
Missile Treaty (ABM) with the construction of its Krasnoyarsk ballistic 
missile early warning radar. Did the Russians eventually resolve those 
concerns? How many years did it take?
    Mr. Wolfsthal. In contravention of the ABM treaty Russia built the 
radar system that was capable of performing battle management functions 
for missile defenses. It took five years for the United States and 
Russia to address these concerns and to bring Russia back into 
compliance.
    Mr. Cooper. You mentioned in your testimony that you do not believe 
the Long-Range Stand-Off Weapons is necessary. Why?
    Mr. Wolfsthal. The United States currently has five different means 
of delivering nuclear weapons globally. The Air Force has determined 
that a new Stealth bomber is necessary to replace the aging fleet of 
strategic B-52 and B-2 bombers. The goal of a Stealth bomber is to 
penetrate enemy defenses and delivered it's payload at close range. The 
cost for developing a Stealth bomber a significantly higher than for 
developing a standoff strategic bomber aircraft. It makes little sense 
to invest the extreme sums of money necessary to develop a truly 
stealthy bomber and also invest considerable psalms to develop a long-
range standoff missiles. I am in favor of bought building either a non-
stealthy long-range bomber and a long range stand off missile OR a 
stealth bomber with gravity bombs. I am not in favor of spending scarce 
resources on a redundancy and is redundant to our land and sea based 
ballistic missiles.

                                  <all>
</pre></body></html>
